Audit Report




OIG-09-021
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2008 and 2007 Financial Statements


December 22, 2008




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NER AL




                                                 December 22, 2008


             MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                            TREASURY FORFEITURE FUND

             FROM:                     Michael Fitzgerald /s/
                                       Director, Financial Audits

             SUBJECT:                  Audit of the Department of the Treasury Forfeiture Fund’s
                                       Fiscal Years 2008 and 2007 Financial Statements

             I am pleased to transmit the attached audited Department of the Treasury
             Forfeiture Fund (TFF) financial statements for Fiscal Years 2008 and 2007. Under
             a contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
             independent certified public accounting firm, performed an audit of the financial
             statements of TFF as of September 30, 2008 and 2007 and for the years then
             ended. The contract required that the audit be performed in accordance with
             generally accepted government auditing standards; applicable provisions of Office
             of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
             Financial Statements; and the GAO/PCIE Financial Audit Manual.

             The following reports, prepared by GKA, are incorporated in the attachment:

                      •   Independent Auditor’s Report on Financial Statements;
                      •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                          and
                      •   Independent Auditor’s Report on Compliance with Laws and Regulations.

             In its audit, GKA found:

                      •   the financial statements were fairly presented, in all material respects, in
                          conformity with accounting principles generally accepted in the United
                          States of America;
                      •   no matters involving internal control over financial reporting that are
                          considered material weaknesses; and
                      •   no instances of reportable noncompliance with laws and regulations
                          tested.
Page 2



GKA also issued a management letter dated October 31, 2008, discussing a matter
involving internal control over financial reporting that was identified during the audit
but was not required to be included in the auditor’s reports. This letter will be
transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. GKA is responsible for
the attached auditor’s reports dated October 31, 2008 and the conclusions
expressed in the reports. However, our review disclosed no instances where GKA
did not comply, in all material respects, with generally accepted government
auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




                           Treasury Forfeiture Fund
                             ACCOUNTABILITY REPORT
                                 Fiscal Year 2008
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C.




                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
                               Message from the Director

I am pleased to present the fiscal year (FY) 2008 Accountability Report for the Treasury
Forfeiture Fund. While highlighting the Treasury Forfeiture Fund’s (the Fund’s) financial
and operational performance over the past year, this report also focuses on some of the
significant investigative achievements of our participating law enforcement agencies this
year. FY 2008 was another milestone revenue year for the law enforcement bureaus
participating in the Treasury Forfeiture Fund, with earned revenue of $386 million from all
sources as compared to $366 million in FY 2007 and $257 million in FY 2006.

The continued high-impact performance of the Fund reflects the ongoing hard work of our
law enforcement bureaus as well as Fund management’s emphasis on major case initiatives,
asset forfeiture program training and a focused approach regarding our performance measure
which gauges revenue from high-impact cases. The mission of the Fund is to affirmatively
influence the consistent and strategic use of asset forfeiture by our law enforcement bureaus
to disrupt and dismantle criminal enterprise. It is our view that the greatest damage to
criminal enterprise can be achieved through large forfeitures; hence we have set a target level
of 75 percent of our forfeitures to be high impact, i.e., currency forfeitures equal to or greater
than $100,000. For FY 2008, our member bureaus exceeded the target with performance of
86.91 percent high-impact cash forfeitures.

For FY 2008, the Treasury Executive Office for Asset Forfeiture (TEOAF) continued its
priority emphasis on training with conferences addressing the cutting edge of investigative
and forfeiture practices of our member bureaus. We developed and funded a new curriculum
for Suspicious Activity Reporting (SAR)/Title 31 Task Forces geared specifically for 11 new
IRS-led Title 31 Task Forces launched in the spring of 2008. The focus of the curriculum
was two-fold: investigative/forfeiture issues in Title 31 cases and existing best practices; and
operational issues involved in establishing and maintaining a Title 31 Task Force.
Additionally, TEOAF conducted the fourth and last seminar in the series “Investigation and
Forfeiture in Cases of Illegal Alien Employment, Smuggling and Trafficking.” Lastly, we
developed a new curriculum for Procedural Issues of the Asset Forfeiture Program and
conducted the first seminar on this subject.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental
Fund representing the interests of law enforcement components of the Departments of
Treasury and Homeland Security. Member bureaus include the Internal Revenue Service’s
Criminal Investigation (IRS-CI), the U.S. Secret Service, Immigration and Customs
Enforcement (ICE), and Customs and Border Protection (CBP). The U.S. Coast Guard
continues its close working relationship with the legacy Customs bureaus.

We look forward to another successful year in FY 2009.


                                                      Eric Hampl, Director
                                                      Executive Office for Asset Forfeiture
                                                      U.S. Department of the Treasury:
                                                     Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ...............................................................................1
    Strategic Mission and Vision ...............................................................................................1
    Case Highlights....................................................................................................................2
    Program and Fund Highlights............................................................................................26
    Program Performance ........................................................................................................27
    Financial Statement Highlights..........................................................................................29

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements ....................................................33
    Independent Auditor’s Report on Internal Control over Financial Reporting...................35
    Independent Auditor’s Report on Compliance with Laws and Regulations......................37

Section III: Financial Statements and Notes

    Financial Statements:
       Balance Sheets .............................................................................................................39
       Statements of Net Cost.................................................................................................40
       Statements of Changes in Net Position........................................................................41
       Statements of Budgetary Resources.............................................................................42
       Notes to Financial Statements......................................................................................43

Section IV:

Required Supplemental Information........................................................................................60

Section V:

Other Accompanying Information...........................................................................................62
                                Treasury Forfeiture Fund
                              FY 2008 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the Department of the Treasury which manages the Fund. A key objective for
management is the long-term viability of the Fund to ensure that there are ongoing resources to
support member-bureau seizure and forfeiture activities well into the future. The emphasis of Fund
management is on high-impact cases that can do the most damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Our member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-
CI), the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Financial Management and Assistant Director for Policy. Functional responsibilities are delegated to
various team leaders. EOAF is located in Washington, D.C., and currently has 20 full time
equivalent positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact forfeitures. Management believes this approach incurs the greatest damage
to criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle
criminal enterprises.



                                       SECTION I - OVERVIEW                                         1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2008 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use high-impact asset forfeiture in
investigative cases to disrupt and dismantle criminal enterprises.


Internal Revenue Service, Criminal Investigations (IRS-CI)
Department of the Treasury

In Rem Forfeiture of real property in the U.S. Virgin Islands linked to LipoBan fraud

This was an in rem 1 forfeiture, pursuant to Title 18 United States Code, Section 981 (18 U.S.C. §
981) of a luxury property located in St. Thomas, U.S. Virgin Islands. The property was forfeited on
the grounds that it represented the proceeds of mail and wire fraud in violation of 18 U.S.C. § 1341
and 1343, and/or was property involved in money laundering offenses in violation of 18 U.S.C. 1956
and 1957.




           Dockside view: Luxury home including just over one acre of property, located in Little Northside
           Quarter, St. Thomas, U.S. Virgin Islands. Property forfeited in rem pursuant to the U.S. Government’s
           Complaint for Forfeiture In Rem which alleged that the defendant property was purchased with
           proceeds from illegal mail and wire fraud and was property involved in money laundering.

1
    A civil forfeiture action in rem is against the property itself for being involved in a violation of law.

2                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
                 Above, view from the patio of the forfeited luxury home, St. Thomas, U.S. Virgin
                 Islands. Below, view of the pool-deck.




On February 19, 2008, a Final Decree of Forfeiture was signed against the defendant real property
located in Little Northside Quarter, St. Thomas, U.S. Virgin Islands. The forfeited property includes
a luxury home and slightly over one acre of land. In the government’s Complaint for Forfeiture In
Rem (Complaint), the United States asserted that from 2000 to 2004, George Forgione and his partner
Frank Sarcona, (Forgione and Sarcona) through various entities, advertised and sold “LipoBan” to

                                          SECTION I - OVERVIEW                                      3
thousands of victims. LipoBan was sold by way of advertisements in various newspapers, through the
LipoBan website and by direct mail solicitations.

These advertisements and correspondence used misrepresentations in order to induce victims to
purchase LipoBan, including statements that LipoBan absorbs 100 times its weight in fat, that if you
used LipoBan you could lose all of your excess weight without changing your diet or exercise habits,
and that LipoBan had been proven effective by two clinical trials. The government’s Complaint
asserted that there was no evidence to support these claims.

Additionally, Forgione and Sarcona mailed correspondence and advertised statements in Florida and
elsewhere alleged to be from a medical doctor, Dr. Joseph Maya. The correspondence and
advertisements touted the effectiveness of LipoBan, however, the government’s Complaint stated that
an investigation revealed that there was no doctor by the name of Joseph Maya licensed to practice
medicine in Florida.

As a result of the misrepresentations and omissions, thousands of victims were illegally induced to
buy LipoBan. Forgione and Saracona obtained millions of dollars in fraud proceeds that were
transferred to various accounts. According to the government’s Complaint, the defendant property,
pictured above, was purchased with proceeds from the LipoBan-related illegal mail and wire fraud
and was property involved in money laundering in violation of Title 18, United States Code.

In Rem Forfeiture of luxury 65-foot Hatteras Yacht, hull name “GOLF,” linked to Fernandez
and Amador money laundering case

This was an in rem forfeiture of a luxury 65-foot Hatteras Yacht, with the hull name, “GOLF.” The
U.S. Government Complaint for Forfeiture sought forfeiture of the defendant vessel pursuant to 18
USC §981(a)(1). The Amended Final Judgment of Forfeiture, signed June 16, 2008, affirmed the
forfeiture of the “GOLF” to the U.S. Government.

During an ongoing money laundering investigation into the activities of Julio Fernandez (Fernandez)
and Guillermo De Leon Amador (Amador), it was discovered that a group of individuals in Puerto
Rico was attempting to launder approximately $10 million in United States (U.S.) currency. In early
November 2006, these individuals placed an initial deposit of between $130,000 and $155,000 with
DT&F Yacht Sales, the owner of the defendant vessel, toward purchase of the yacht.

Two weeks later, Fernandez and Amador delivered approximately $603,500 in U.S. currency
concealed inside a large duffle bag to someone whom they believed would help them to launder the
ill-gotten currency, who was actually an undercover law enforcement officer. Some of the currency
was bundled with rubber bands and some was loose inside the bag. The $603,500 was intended as
further down payment on the defendant vessel, which the undercover officer agreed to launder for
Amador and Fernandez. Later the same day, a narcotic detection canine (K-9) alerted to the presence
of narcotics on the black duffle bag containing the U.S. currency as well as the currency contained
within the bag. The K-9 is trained to alert to the odor of several narcotic drugs, including cocaine,
marijuana and heroin.

Inside the duffel bag, along with the currency was a type-written note with wire transfer instructions
pertaining to Oviatt Marine Inc., the seller of the Hatteras yacht. The next day, the undercover officer
deposited the U.S. currency into a bank account and on November 28, 2006, wired over $543,000
into the Oviatt Marine account number pursuant to the written instructions found in the black duffle

4          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
bag along with the currency. The balance of over $60,000 was retained as the pre-arranged
commission for laundering the currency.

Similar to the first transaction, on December 4, 2006, Fernandez and Amador delivered just under
$745,000 in U.S. currency to the undercover officer. Again, after the currency was delivered, a
narcotics detection K-9 alerted to the presence of narcotics on the bags containing the currency. The
same day, the undercover officer deposited the currency into the same bank account as previous. On
December 7, 2006, the undercover officer wire transferred just over $670,000 to the Oviatt Marine
Inc’s account number. Once again, the difference of about $75,000 was retained by the undercover
officer as the pre-arranged commission for laundering the currency.




   Forfeited in rem, a
   2001 65-foot
   Hatteras Convertible
   Yacht, hull name
   “GOLF.” The yacht
   is outfitted with twin
   1400 horsepower
   Caterpillar diesel
   engines.




    Over $1.2 million in laundered U.S. currency was paid for the purchase of the “GOLF,” a 65-foot luxury yacht,
    forfeited to the U.S. Government on June 16, 2008, for Title 18 and 21 violations.


An analysis of the Oviatt Marine Bank account for the relevant period to trace the disposition of the
$1,213,583 wire transferred by the undercover officer showed that the vessel was purchased with
monies furnished or intended to be furnished in exchange for a controlled substance or proceeds
traceable thereto.


Financier Thomas Kontogiannis, forfeits $1,012,538.75 for laundering bribes for former
Congressman Randall “Duke” Cunningham

Financier Thomas Kontogiannis (Kontogiannis) pled guilty in February 2007 to one count of
Engaging in Monetary Transaction in Property Derived from Specified Unlawful Activities in
violation of 18 U.S.C. § 1957, for his involvement in laundering bribe money for then-Congressman
Randall “Duke” Cunningham.

                                             SECTION I - OVERVIEW                                                   5
On May 16, 2008, Kontogiannis was sentenced to serve 97 months in custody, to pay a $1,050,000
fine, and to serve three years of supervised release following his release from custody. In addition,
Kontogiannis agreed to forfeit $1,012,538 in U.S. currency which constituted or was derived from
proceeds traceable to various violations of Title 18 of the United States Code. The Forfeiture
Judgment was signed on June 4, 2008.


Saad Kamil Deeb charged with 29 counts of structuring financial transactions with a financial
institution to evade reporting requirements, forfeits $871,300

According to the Indictment, dated November 8, 2006, Defendant Saad Kamil Deeb (Deeb) was a
pharmacist licensed in the State of West Virginia and the owner and operator of Deeb Drug, Inc., also
known as Citizens Pharmacy and as Citizens Drug Store, a retail pharmacy business located in
Welch, West Virginia.

According to the Verified Complaint of Forfeiture, dated November 28, 2007, Deeb conspired with
other persons to illegally structure financial transactions for the purpose of avoiding the reporting
requirements of 31 U.S.C. § 5313(a) and associated regulations, in violation of 31 U.S.C. §
5324(a)(3). The intent was to conceal from the United States, in particular the Internal Revenue
Service, the amount of currency possessed by Deeb in connection with his unlawful activity, federal
income tax evasion, in violation of 26 U.S.C. § 7201, and conducting an illegal gambling business in
violation of 18 U.S.C. §1955.

The Final Order of Forfeiture was signed on May 27, 2008, forfeiting $871,300 to the U.S.
Government.

Robert and Otis Harrison, Harrison Amusement Company, Inc., plead guilty to charges related
to illegal gambling, money laundering and others, forfeit $26 million in real property, cash and
personal property

From the late 1990’s until December 2006, Harrison Amusement Company, Inc. was a major
provider of video poker machines in southern North Carolina. During that time period, North
Carolina law allowed such machines only for “Amusement purposes.” Cash payouts and awards of
merchandise valued at more than $10 were prohibited.

Law enforcement groups received numerous complaints alleging illegal cash payouts from Harrison
video poker machines, and that players were losing large sums of money. In June 2006, the North
Carolina Law Enforcement Division (ALE) began an undercover investigation of Harrison
Amusement. More than 45 undercover visits to 38 locations revealed widespread and blatant
violations of state gambling laws by the operators of Harrison Amusement machines. The
investigation also revealed that Otis Harrison and his son, Robert “Bobby” Harrison, the
owner/operators of Harrison Amusement, knew of and encouraged the practice of making illegal cash
payouts. For example, they kept an employee on call at all times with up to $15,000 in cash available
to deliver in the event a player hit a large “jackpot.”

Quarterly reports filed with the North Carolina Department of Revenue by Harrison Amusement
reflect that the business had gross receipts of more than $62,000,000 and paid out approximately
$20,000,000 in awards from 2001 through September 2006. During this time, Otis and Boby
Harrison amassed more than $26,000,000 in cash, investment accounts and real property.

6          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
The investigation of the Harrisons culminated in early December 2006, when IRS and ALE, with the
assistance of other state and local law enforcement agencies, executed dozens of search and seizure
warrants. Federal jurisdiction in this matter was based on Title 18, United States Code, Section 1952
(Interstate Travel or Transportation in Aid of Racketeering Enterprises); Title 18 United States Code,
Section 1955 (Illegal Gambling Businesses); Title 18, United States Code, Section 1956 (Laundering
of Monetary Instruments); and Title 18, United States Code, Section 1957 (Engaging in Monetary
Transactions in Property Derived from Specified Unlawful Activity.)

Robert and Otis Harrison eventually plead guilty to federal charges and consented to forfeiture of
more than $5 million in cash and investment accounts, seven vehicles, a boat, four commercial
properties in North Carolina, two commercial properties in downtown Bennettsville, South Carolina,
and 17 luxury rental and commercial properties in Myrtle Beach, South Carolina. The total value of
the forfeited property is estimated to be $26,000,000.

Sentencing for Otis and Bobby Harrison is scheduled for November 2008.




 Forfeited pursuant to the Harrison and Harrison Amusement gambling and money laundering matter, 902 South
 Waccamaw Drive, Garden City, South Carolina and all furnishing, fixtures and equipment at the address. Pictured
 above, the front and rear of the residence, including custom boat dock and boat.




                                                               i

Also forfeited pursuant to the Harrison, Harrison Amusement illegal gambling and money laundering matter, 18
Charlestowne Court, Pawley’s Island, South Carolina and all furnishings, fixtures and equipment at that address.




                                              SECTION I - OVERVIEW                                                 7
Richard M. Rosenbaum, Edward Scott Cunningham, and Christina A. Flocken forfeit real
properties, insurance policies and cash and bank accounts for federal violations related to
harboring illegal aliens and for conspiring to defraud the U.S. Government

In June 1997, Richard M. Rosenbaum (Rosenbaum) and Edward Scott Cunningham (Cunningham),
residents of Florida, filed articles of incorporation in Nevada for a corporation named “Rosenbaum-
Cunningham International, Inc., (RCI).” Rosenbaum and Cunningham described their business as a
“janitorial contracting service,” in business registration documents also filed in Nevada. In late
November 1997, Rosenbaum, Cunningham, and Christina A. Flocken (Flocken) opened a bank
account under the corporate name “RCI Inc.” and entitled “RCI Inc. Payroll Account.” Rosenbaum
signed the account signature card as “President,” Cunningham signed as “Vice President,” and
Flocken signed as “Controller.”

Between June 1997 and February 15, 2007, Rosenbaum, Cunningham, and Flocken developed,
maintained and managed a workforce of hundreds of employees working at hospitality sector venues
throughout the United States.

Rosenbaum, Cunningham and Flocken unlawfully enriched themselves by establishing, maintaining,
and managing an unskilled labor force of employees, knowingly and in reckless disregard of the fact
that most of those employees were aliens who had come to, entered, and resided in the United States
in violation of law. The defendants adopted this as a means because the composition of RCI’s
workforce was essential to the success of their scheme. Illegal aliens were willing to be paid in cash,
without the creation of payroll records; they could be hired on the spot, without the creation of any
employment records; and could be fired at will without likely legal recourse, and were highly
unlikely to report the irregular nature of their employment to any authority.




       Real Property at 17531 Via Loma Drive, Poway, California, forfeited in rem from Christina A. Flocken,
       pursuant to violations of Title 18, United States Code.



From there, Rosenbaum, Cunningham and Flocken failed to collect, account for, or pay federal
income tax withholding, Social Security and Medicare taxes (FICA), and Federal unemployment
taxes to the Internal Revenue Service from the wages they paid to these employees as they were

8          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
required by law to do. The defendants expended a portion of these unlawfully retained funds on
operating costs of RCI, and retained the balance as profit for RCI, which they then divided among
themselves.

Between tax years 2001 and 2005, RCI received gross receipts from its clients of approximately
$54.3 million. As a direct result of RCI’s deliberate failure to collect, account for, and pay the noted
taxes to the Internal Revenue Service, the United States Government was deprived of approximately
$18.6 million in employment taxes.

The defendants used ill-gotten funds to buy luxury boats and vehicles; to purchase lavish homes in
Florida and California; to acquire race horses and to pay for their maintenance, to pay college tuition
for their respective children; to fund excessive insurance policies; and generally to support
extravagant spending and lifestyle costs.

On May 27, 2008, a Final Order of Forfeiture was signed ordering the defendants to forfeit: bank
accounts totaling over $1.2 million, insurance policies with cash values of over $165,000, currency of
over $134,000 and $1.3 million of proceeds from the Interlocutory Sale of two real properties, one
located at 429 Vista Oak Drive, Longwood, Florida owned by Flocken; and the other located at
17531 Via Loma Drive, Poway, California, jointly owned by Flocken and a shell company created to
disguise the fraudulent activities.

These forfeitures were ordered pursuant to 18 U.S.C. § 982(a)(6)(A)(ii).




                                        SECTION I - OVERVIEW                                          9
                                     A Look Back at 2007 for IRS-CI
The following forfeiture occurred in the latter part of FY 2007, and includes a significant forfeiture
for IRS-CI.

Wall Street Success Story Fingerhut forfeits $11 million in illegal profits for scheme that
cheated banks and their depositors
       Information for the following forfeiture article is attributed to:
       Peter Lattman, from his article: “Ex-Star Analyst Sentenced to Prison for IPO Caper,” published in the Wall
       Street Journal on August 6, 2007;
       Jeff Whelan, from his article: “Wall Street success story Fingerhut is going to jail for financial fraud,” published
       in The Star-Ledger, on August 4, 2007; and
       Greg Saitz and Guy Sterling from their article, “Investor admits to $12M bank fraud,” published in Business on
       May 27, 2007.

Wall Streeter, Bert Fingerhut (Fingerhut) was a top-ranked securities analyst for eight straight years
and achieved the status of Director of Research at Oppenheimer & Company in 1980. A mere three
years later, at the age of only 40, he retired to Aspen, Colorado. In Colorado, Fingerhut applied his
passion to conservation efforts, joining the boards of several environmental organizations. But
Fingerhut still had investment yearnings. According to published articles about this case, somewhere
along the way, Fingerhut acquired a copy of Peter Lynch’s “Beating the Street,” in which the former
Fidelity Magellan Fund star manager wrote about “bank-conversion investing.”

Bank conversion investing occurs when mutual, depositor-owned banks convert to public companies
and let depositors buy stock at the initial-public-offering (IPO) price. The new shares are often
priced at a discount. Mr. Fingerhut apparently took great interest in this investment activity because
starting in 1995, he opened accounts at more than 400 banks across the country, from Wellsburg,
West Virginia to Covina, California. He eventually participated in public offerings at many of them
and sold the purchased stock shares for quick profits. Over a decade, according to articles about this
case, Fingerhut made $11 to $12 million from these bank conversion investment efforts.
Unfortunately, the way Fingerhut went about his bank conversion investments, he was breaking the
law.

Fingerhut secretly and fraudulently amassed shares to which he was not entitled and sold them. In
this manner, he defrauded other eligible depositors from the possibility of purchasing shares of stock,
admitting that he organized a strategy to circumvent federal and state banking regulations.
Fingerhut’s childhood friend with whom he grew up in New York, Robert Danetz, pleaded guilty to
charges for his role in the scheme. Fingerhut used Danetz, 62, who retired after 34 years as a school
teacher in the Bronx, and others to make illegal purchases on his behalf at dozens of banks.
Fingerhut’s nephew and Danetz’s brother became entangled in the scheme as well. Regulators called
it the most extensive bank conversion fraud they had ever seen. Danetz signed a Plea Agreement
with the Federal Government in April 2007, in which he agreed to forfeit over $800,000.

In August of 2007, a federal judge sentenced Fingerhut to up to two years behind bars and four
months’ home confinement. He was also fined $75,000 and forfeited $11 million in illegal profits.




10          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Immigration and Customs Enforcement (ICE)
Department of Homeland Security

Michael Pelletier, 56, convicted of drug trafficking, money laundering and other charges,
sentenced to life in prison and ordered to forfeit two automobiles, a farm tractor, three pieces
of real estate and nearly $21,000 in cash.

In January 2008, Michael Pelletier (Pelletier), of Maine, was sentenced to life in prison following his
2007 conviction on drug trafficking, money laundering, structuring and Social Security fraud charges.
In the federal criminal justice system, there is no parole. As part of his sentence, Pelletier was also
ordered to forfeit two automobiles, a farm tractor, three pieces of real estate, and nearly $21,000 in
cash. In addition, he was ordered to pay $83,848 in restitution to the Social Security Administration.

Evidence presented at Pelletier’s trial revealed that between 2003 and 2006, at a time when he was
receiving Social Security disability benefits, he and others participated in a conspiracy to import into
the United States from Canada 1,000 kilograms or more of marijuana for the purpose of distribution.
Pelletier arranged for delivery of the marijuana from his Canadian sources of supply and hired
smugglers to ferry 60 pounds or more at a time across remote locations. The marijuana was then
distributed in multi-pound quantities to customers through Maine.

Pelletier used the proceeds from his marijuana trafficking business to purchase real estate, vehicles,
farm equipment, horses, and all-terrain vehicles. His purchase of some of these assets resulted in his
convictions for money laundering and structuring. In addition, because even illegal activities
constitute “work,” as defined by the Social Security laws, and because the evidence revealed that
Pelletier failed to report his work, namely, his operation of his marijuana distribution business, to the
Social Security Administration, he was also convicted of three counts of Social Security fraud.



Felisberto Magalhaes, 55, of Manassas, Virginia pleads guilty to illegal employment of aliens,
sentenced to one year probation, ordered to forfeit $122,000

In April 2008, Felisberto Magalhaes (Megalhaes), 55, of Manassas, Virginia pled guilty to a pattern
or practice of illegal employment of aliens without lawful authority to work in the United States.
Magalhaes was sentenced to one year probation, and ordered to forfeit $122,000. According to court
documents, Magalhaes was associated with CMC Concrete and Stonewall Concrete, both based in
Manassas, Virginia. Magalhaes hired aliens without lawful permission to work or reside in the
United States. During the execution of a search warrant in March 2008, Immigration and Customs
Enforcement (ICE) agents encountered 34 aliens without lawful permission to work or reside in the
United States. Approximately, 257 aliens employed were using Social Security numbers that had not
been issued to anyone or had been issued to people other than the aliens using the numbers.

Cindy Ahn, 51, of Los Angeles, California, pleads guilty to federal charges stemming from
operation of an unlicensed money transmitter business, forfeits $687,000

In October 2007, Cindy Ahn, 51, owner of Security Trust and Foreign Exchange (Security Trust) on
Wilshire Boulevard, Los Angeles, admitted she failed to maintain the required records to verify the

                                        SECTION I - OVERVIEW                                          11
identity of her customers and failed to maintain records of the transactions of transfers of more than
$10,000 to or from persons or accounts outside the United States. From 2002 until September 2005,
Security Trust illegally funneled hundreds of thousands of dollars to and from South Korea.

According to Ahn’s plea agreement, Ahn understood that her business enabled individuals to
anonymously transfer large amounts of money, avoiding the scrutiny of government regulators as
well as federal and state taxing authorities. As part of the investigation, the government seized more
than $1 million, of which Ahn was ordered to forfeit $687,000 identified as proceeds of her illegal
activity.

Scott Haymond, a 43-year old mortgage broker of Washington State ordered to forfeit $268,800
for structuring violations

In July 2008, Scott Haymond (Haymond), 43, a mortgage broker from Bonney Lake, Washington,
was sentenced to six months of home detention, three years of probation, a $5,000 fine and ordered to
forfeit $268,800. In an April 2008 plea agreement, Haymond admitted to structuring bank deposits
to avoid federal financial reporting requirements. Haymond made 28 deposits into multiple branches
of six different banks totaling $268,800 in September 2005. Fourteen months later, he made 19
deposits into 13 bank branches totaling $185,000. All of the deposits were for amounts ranging from
$9,000 to $9,900.

Structuring is a federal crime under the Bank Secrecy Act. It occurs when an individual splits a cash
deposit or withdrawal of more than $10,000 into smaller transactions to circumvent financial
reporting requirements.

Jong Ock Mao, 50, of West Covina, California, pleads guilty to federal charges, forfeits more
than $12 million in assets

Jong Ock Mao (Mao), 50, of West Covina, California, ran a string of brothels out of chiropractic
offices, acupuncture clinics, “spas,” tanning salons and massage parlors in Southern California and
Dallas. Ock pled guilty in August 2008 to felony criminal charges for her role in the scheme,
specifically to conspiring to use interstate commerce to promote prostitution and using the proceeds
from her six brothels to purchase real estate. As part of her guilty plea, Mao, a naturalized Korean
native, agreed to forfeit more than $12 million and property and assets she derived from the
prostitution scheme which included four private motocross tracks in California, Texas, and Florida.

              This was a joint investigation by Immigration and Customs Enforcement (ICE), Internal Revenue
                Service Criminal Investigations (IRS-CI) and the Los Angeles County Sheriff’s Department.



Saulo Reyes Gamboa, 37, guilty of conspiring to import marijuana and other crimes, sentenced
to 8 years in prison, a $50,000 fine, and ordered to forfeit $19,250 and a vehicle

Immigration and Customs Enforcement (ICE) agents arrested Saulo Reyes Gamboa (Reyes) in
January 2008, after he paid a bribe to a person he believed to be a corrupt federal officer to facilitate
smuggling drug loads through the international ports of entry. Reyes pled guilty June 13, 2008, to
conspiracy to import 100 kilograms (220 pounds) or more of marijuana. Reyes admitted that he paid
$4,250 on January 15, 2008, and another $15,000 on January 16, 2008, to an undercover ICE agent,



12         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
whom he believed was a bridge inspector, to allow a vehicle loaded with more than 400 kilograms of
marijuana through the Paso del Norte Port of Entry without proper inspection.

Reyes was sentenced in September 2008 to a 97-month prison sentence, ordered to pay a $50,000
fine, required to serve 20 years under supervised release after he completes his prison term, and
ordered to forfeit the illegal proceeds derived from the criminal actions which included $19,250 in
U.S. currency, and a 2005 Volkswagen Tourareg vehicle.


Jose Martinez, 44, owner of Martinez Autos in El Paso, Texas, forfeits 26 vehicles and $107,769
for structuring and currency reporting violations

Jose Martinez (Martinez), 44, owner of Martinez Autos in El Paso, Texas, was named in a 19-count
indictment that charged him with illegally structuring bank deposits and failing to file currency
transaction reports. Immigration and Customs Enforcement (ICE) agents arrested Martinez in
November 2007, and he pled guilty to one count each of structuring and failure to file currency
transactions reports. The investigation showed that Martinez, who had owned Martinez Autos since
March 2003, began in January 2004 to open bank accounts in various names associated with the
business. From that time, Martinez made more than 50 structured cash deposits in amounts ranging
from $5,000 to $9,500 that totaled $740,585.

In June 2008, Martinez was sentenced to more than two years in prison and ordered to forfeit 26
vehicles, and up to $107,769 as proceeds derived from the illegal activity. In addition, a monetary
judgment was ordered against Martinez in the amount of $792,250.

Saeed Ahmed, 46, of Salisbury, Maryland, pleads guilty to a racketeering conspiracy and
agrees to forfeit $500,465

Saeed Ahmed (Ahmed), 46, of Salisbury, Maryland pled guilty in August 2008, to a racketeering
conspiracy related to a scheme to bribe officials with U.S. Citizenship and Immigration Services
(USCIS) to illegally obtain green cards and the Maryland Comptroller’s Office to receive abatement
of state taxes. The payments for the bribes were all made to a cooperating witness, who provided the
money to federal law enforcement agents. There were no corrupt USCIS and state officials involved
in the scheme. As part of a plea agreement, Ahmed agreed to forfeit $500,465. Ahmed also faces a
maximum sentence of 20 years in prison and is scheduled for sentencing in early November 2008.

             This was an ICE lead investigation with assistance from the Federal Bureau of Investigation
                    (FBI), the Internal Revenue Service and the Maryland Comptroller’s Office.



Several individuals, including two M.D.’s, plead guilty to conspiracy for their participation in
the illegal sale of prescription pharmaceuticals, forfeit millions in ill-gotten gains

In August 2008, two physicians pleaded guilty to conspiracy for their participation in an Internet
pharmacy business that generated more than $126 million in gross revenues from the illegal sale of
prescription pharmaceuticals. Chandresh Shah (Shah), M.D., 51, of Smyrna, Georgia, pleaded guilty
to one count of conspiracy to illegally distribute controlled substances and was ordered to forfeit
$16,674. In early July 2008, Gerald Morris (Morris), M.D., 37, of Houston, also pleaded guilty to
one count of conspiracy to illegally distribute controlled substances and was ordered to forfeit
$52,446.
                                              SECTION I - OVERVIEW                                         13
Shah and Morris were indicted in July 2007, along with 16 other defendants, for their role in a
conspiracy to operate an international online pharmaceutical distribution network known as
Affpower. According to the indictment, the Affpower enterprise sold controlled and non-controlled
prescription drugs through numerous affiliated Web sites to customers who lacked prescriptions for
the drugs from a personal physician. From August 2004 to June 2006, the Affpower enterprise
allegedly received more than one million Internet orders for controlled and non-controlled
prescription pharmaceuticals from customers in all 50 states.

In their plea agreements, both Shah and Morris admitted that they and other doctors issued drug
prescriptions, not in the course of diagnosing and treating medical conditions, but to facilitate the sale
of prescription pharmaceuticals pre-selected by customers and for the doctors’ own personal profit.
Morris and Shah also admitted Affpower enterprise doctors conducted no physical or mental
examinations before issuing prescriptions, had no contact with customers and had no physician-
patient relationship with any customer for whom the doctors prescribed drugs. Both Shah and
Morris face a maximum of five years in prison and $250,000 in fines for conspiracy to illegally
distribute controlled substances. They are scheduled to be sentenced in early 2009.

In addition to the pleas by Shah and Morris, plea agreements for two other defendants connected to
the Affpower enterprise show that Michael L. Bezonsky (Bezonsky), 46, of Calabasas, California,
pled guilty in San Diego to one count of participating in a RICO conspiracy for his role in creating
and operating the Affpower enterprise. In pleading guilty, Bezonsky admitted that at his and others’
direction, the Affpower enterprise engaged in a pattern of racketeering activity involving multiple
acts of illegally distributing controlled substances and money laundering. Bezonsky agreed to forfeit
more than $12 million in connection with his plea. Bezonsky faces a maximum of 20 years in prison
and a fine of $250,000 or twice his gross profits from the illegal activity for the RICO conspiracy
when he is sentenced, scheduled for early 2009.

At the same time, Bezonsky also entered a guilty plea to one count of conspiracy to distribute
controlled substances and one count of money laundering charged in a separate indictment returned
in August 2006, in the Eastern District of Pennsylvania stemming from other related illegal Internet
pharmacy activities. Bezonsky was ordered to forfeit more than $635,792 in connection with the
Pennsylvania plea. In that plea agreement, Bezonsky admitted to being the principal operator of
another Internet pharmacy business known as RX Medical One, which received approximately
$33 million from the sale of controlled pharmaceutical substances from approximately September
2003 to May 2004. Bezonsky faces fines and penalties similar to those in California for the
Pennsylvania crimes.

Brittin Cahill (Cahill), 45, of Alisa Viejo, California also pled guilty to one count of conspiracy to
illegally distribute controlled substances and one count of conspiracy to commit money laundering.
Cahill admitted that she operated Affpower enterprises’ Web sites, recruited and managed other
affiliates who advertised the Affpower enterprises’ business, and opened an overseas account in the
name of a fictitious business in which she received some of her commissions from the illegal sales of
controlled substances. Cahill was ordered to forfeit $582,746 as part of her plea agreement, and
faces a maximum of five years in prison and a $250,000 fine for the conspiracy to illegally distribute
controlled substances and a maximum of 20 years in prison and a $500,000 fine for the conspiracy to
commit money laundering.



14          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
In addition, two other defendants pled guilty for their roles in the Affpower enterprise and agreed to
forfeitures as part of their plea agreements. David Ari Glass agreed to forfeit $118,000 of illegally
earned proceeds from his participation in the Affpower enterprise, and Jeffry Alan Wright pled guilty
to a misdemeanor charge of conspiracy to dispense misbranded drugs and agreed to forfeit $205,143.

         The charges are the result of an investigation by a multi-agency task force in San Diego made up of agents from
             U.S. Immigration and Customs Enforcement (ICE), the Federal Drug Administration’s (FDA) Office of
        Investigations, the Internal Revenue Service Criminal Investigations (IRS CI), the Federal Bureau of Investigation
                       (FBI), the Drug Enforcement Administration and the U.S. Postal Inspection Service.

Maryland restaurant owner, wife plead guilty in scheme to launder money and harbor illegal
aliens, owner aggress to forfeit $7.2 million in cash, properties, vehicles and other assets

Francisco C. Solano (Solano), 56, of Germantown, Maryland, co-owner of El Pollo Rico Restaurant
in Wheaton, pled guilty in July 2008 to conspiracy to harbor aliens, conspiracy to commit money
laundering, and structuring bank transactions to evade reporting requirements in connection with the
operation of the restaurant. His wife, Ines Hoyos-Solano, 60, pled guilty to conspiracy to commit
money laundering.

According to his guilty plea, from January 1999 to July 2007, Solano concealed illegal aliens in
residences and businesses they owned and rented in Wheaton and Kensington, Maryland. He paid
the aliens in cash and accepted rent payments in cash only. Solano did not prepare Employment
Eligibility Verification Forms, which establish the eligibility of an individual to be employed in the
United States legally for those employees. In addition, Solano laundered the proceeds from the
illegal employment of aliens. He and others deposited more than $6 million from the operation of the
restaurant into the El Pollo Rico business account from 2002 to 2007. Transfers were made from the
El Pollo Rico business account to business and personal accounts in the names of Solano and other
co-conspirators. Funds from those deposits were used to pay for personal assets, including property,
jewelry, collectible coins, cars and investment accounts. Between 2002 and 2006, Solano structured
deposits into the El Pollo Rico business account in amounts less than $10,000 to avoid triggering
bank reporting requirements that could reveal criminal conduct.

According to Ines Hoyos-Solano’s guilty plea, she knew that aliens were harbored at El Pollo Rico
and with her knowledge and approval, let her husband use proceeds from the harboring to purchase a
$120,000 life insurance policy in their joint names.

As part of the plea, Solano forfeited nearly $7.2 million derived from the illegal activities including,
13 bank and investor accounts, seven properties located in Wheaton, Kensington, and Silver Spring,
Maryland, and in Arlington, Virginia; three vehicles, collectible coins and jewelry. Ines Hoyos-
Solano agreed to forfeit $1,572,218 in cash found in the bedroom of her residence during a July 2007
search, and money held in two bank accounts, property in Silver Spring, Maryland, collectible coins,
and jewelry. Both defendants agreed to cooperate with the Internal Revenue Service (IRS) in the
assessment and collection of their tax liabilities for the years 2000 to 2007.




                                                SECTION I - OVERVIEW                                                         15
                                                                              The highly-rated El Pollo Rico
                                                                              Restaurant in Wheaton
                                                                              Maryland. Owner, Francisco
                                                                              Solano and wife forfeit $7.2
                                                                              million derived from harboring
                                                                              illegal aliens and structuring
                                                                              transactions to evade reporting
                                                                              requirements of the U.S.
                                                                              Government.




                               Picture credit to: NBC4.com


Both defendants face a maximum of 20 years in prison for the money laundering conspiracy. In
addition, Solano faces a maximum sentence of 10 years in prison for the harboring conspiracy and
five years in prison for structuring transactions to evade reporting requirements. The defendants are
scheduled to be sentenced in November 2008.

Solano’s sister, Consuelo Solano, 70 of Arlington, Virginia, and brother, Juan Faustino Solano, 57, of
Kensington, Maryland, pled guilty in June 2008 to the money laundering conspiracy and Juan Solano
also pled guilty to conspiracy to harbor aliens.

Houston area donut company president and 3 managers plead guilty to immigration violations,
forfeits $1.334 million

Shipley Do-Nut Flour and Supply Company Inc. (Shipley Do-Nut), pled guilty in September 2008 to
conspiring to harbor illegal aliens, and three former and current managers also pled guilty to hiring or
continuing to hire illegal aliens. Shipley Do-Nut, headquartered in Houston, is a corporation
involved in supplying baking materials and logistical support to retail stores, and to 200 franchises in
Texas, Alabama, Arkansas, Louisiana, Mississippi and Tennessee.

As part of its agreement with the United States, the company has taken measures to revise its
immigration compliance program, and has agreed to begin implementing new procedures to prevent
future violations of federal immigration laws. Shipley Do-Nut agreed to pay $1.334 million to the
United States in lieu of forfeiting the company’s interest in the various company-owned residences
where illegal alien employees were housed.




16         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
                                ICE Returns Ancient Artifacts to Iraq

ICE Returns to Iraq more than 1,000 Artifacts Illegally Imported to the United States

In September 2008, Immigration and Customs Enforcement (ICE) officials completed the repatriation
of 1,046 cultural antiquities to the Government of Iraq that were seized in four separate investigations
dating back to 2001. The items, which included terra cotta cones inscribed in Cuneiform text, a
praying god figurine that was once imbedded in a Sumerian temple and coins bearing the likenesses
of ancient emperors, are illustrative of the long and varied history of the country now known as Iraq.
Remnants of ancient Cuneiform tablets, which were sized by the Customs Service in 2001, were
recovered from beneath the ruins of the World Trade Center.

In all four investigations of the importation of the Iraqi artifacts into the United States, the items were
seized for false declaration of country of origin:

    1. In 2001, ICE agents detained a commercial delivery of 300 Cuneiform clay tablets by a
       Newark, New Jersey antiquities gallery for authentication by experts, which confirmed that
       the text on the tablets was of Iraqi origin and not from Dubai, United Arab Emirates, as
       declared on Customs entry documents. These tablets were later recovered from the ruins of
       the World Trade Center attack. This cache included 45 molded terracotta tablets, eight stone
       cylinder seals and nine amulets with animals indicative of the Old Babylonian Period (1500
       to 1700 B.C.)

    2. Also in 2001, ICE agents received information from the Art Loss Register that a copper
       Sumerian Foundation Peg Figurine was being sold by auction at Christie’s New York.
       Archaeologists familiar with an excavation at Al Hiba, Iraq, confirmed that it was a Sumerian
       Foundation figurine, circa 3rd Century, B.C., depicting a praying god, dating to the reign of
       King Enannatum of Lagash (circa 2400 B.C.). Importation documents indicated Syria as the
       figurine’s country of origin. Foundation figures such as this one were buried in the
       foundations of temples to establish the patronage of the ruler who built the temple. The
       figurine, estimated to be worth $100,000, had been stolen from the Iraqi museum at the end of
       the first Gulf war.



                                                          Sumerian Foundation Peg Figurine, circa 3rd
                                                          Century, B.C. Foundation figures such as this
                                                          were buried in the foundations of temples to
                                                          establish the patronage of the ruler who built
                                                          the temple. Estimated to be worth $100,000,
                                                          this heritage artifact was stolen from the Iraqi
                                                          museum at the end of the first Gulf war.
                                                          Recovered by Immigration and Customs
                                                          Enforcement (ICE) and returned to the
                                                          Government of Iraq in 2008.




                                         SECTION I - OVERVIEW                                                17
     3. In 2003, twelve more foundation cones were identified as from Lagash (Southeast Iraq) and
        not Syria as declared on a Customs entry document. The cones were created at or about
        2141-2122 B.C.

     4. Also in 2003, five Federal Express packages containing glass bottles, coins, copper knives,
        spear heads, necklaces, cylinder seals, a bronze stick and a set of decorative armor were
        imported by another Newark, New Jersey gallery. ICE agents determined, with the help of
        experts, that the items, which were originally declared to be of British origin, were all, except
        for the armor, from Iraq. In total, 671 items were seized and determined to be from various
        locations throughout Iraq.




                                                                     ICE seized these and other artifacts from a
                                                                     Federal Express package addressed to a
                                                                     New Jersey gallery importer. With the
                                                                     help of experts, ICE determined that these
                                                                     were antiquities belonging to Iraq.




                Other Iraqi antiquities seized by ICE and returned to the Government of Iraq in 2008.



The items were turned over in a ceremony at the Embassy of Iraq, where Iraqi Ambassador Samir
Shakir Mahmood Sumaida’ie accepted on behalf of his government.




18           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Customs and Border Protection (CBP)
Department of Homeland Security

CBP officers at the El Paso port of entry intercept vehicle with bundles of U.S. currency
totaling $1.8 million concealed in door panels, seized for forfeiture

In February 2008, CBP officers working at the El Paso port of entry intercepted a 1992 Ford
Expedition with $1,858,085 of U.S. currency concealed in the door panels of the vehicle. The
seizure was made shortly before 11 a.m. when the vehicle, carrying a family of three, entered the
Bridge of the Americas port of entry from Mexico. A CBP officer at the primary inspection booth
noticed that the driver of the vehicle was nervous during a routine inspection. The CBP officer
began to search the vehicle using a “Buster” density meter and received high readings consistent
with hidden contraband.

The CBP officer examined a door more closely and spotted bundles of U.S. currency wrapped in
clear plastic tape behind the door panel. The officers took custody of the driver and continued the
inspection of the vehicle, discovering currency bundles concealed in all five doors of the vehicle,
denominations included $100’s, $50’s, $20’s, $10’s and $5’s.




                                                             Plastic-wrapped bundles of U.S.
                                                             currency, $100’s, $50’s, $20’s, $10’s
                                                             and $5’s, were concealed in the door
                                                             panels of a 1992 Ford Expedition. The
                                                             concealed currency totaled more than
                                                             $1.8 million, and was seized at the
                                                             Bridge of the Americas port of entry.




CBP Air and Marine P-3 aircraft detects 35-foot, twin outboard go fast boat, $250,000 seized
for forfeiture

On March 13, 2008, a CBP Air and Marine P-3 aircraft, deployed to Liberia, Costa Rica, was tasked
by Joint Interagency Task Force South (JIATF-S) to perform a search in an area 220 nautical miles
northwest of Cartagena Colombia. The P-3 detected a go-fast Eduardono type vessel, approximately
35 feet long with 2 outboards and a four person crew. The P-3 vectored a U.S. Coast Guard Cutter
to the area, and the Cutter launched a helicopter to investigate. The helicopter used disabling gunfire
to stop the vessel. A U.S. Coast Guard boarding team seized $250,000 in cash and detained four
suspects.
                                        SECTION I - OVERVIEW                                         19
             This picture depicts the 35-foot, double outboard Eduardono-type vessel
             interdicted northwest of Cartagena, Colombia, with $250,000 onboard.




                                          CBP Fights Drug Traffic

CBP Officers Arrest 31-Year Old Male, Attempting to Smuggle Liquid Cocaine into the
United States from St. Lucia

In June 2008, CBP officers at the Luis Muñoz Marin International Airport, San Juan, Puerto Rico,
detained a Jamaican national attempting to smuggle liquid cocaine from St. Lucia. The CBP officers
referred the 31-year-old male passenger for a secondary inspection. During the examination, CBP
officers found three bottles of liquor among his belongings. The content of the bottles was tested
and reacted positive for cocaine. A total of 3.14 liters of cocaine were seized and the passenger was
arrested.




                                                                        Three liquor bottles in the luggage of a
                                                                        passenger from St. Lucia, containing
                                                                        3.14 liters of cocaine, 31-year-old
                                                                        arrested.




CBP Air and Marine Aid Panama Police in Seizing More than $49 Million Worth of Cocaine,
Two Go-Fast Boats

In June 2008, CBP Air and Marine assisted Panamanian authorities in the seizure of 5,511 pounds of
cocaine, worth more than $49 million on the street, and two vessels in the ocean approximately 85

20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
miles west of Panama City, Panama. A CBP P-3 surveillance aircraft out of Corpus Christi, Texas,
detected a go-fast vessel on course to rendezvous with a stationary go-fast vessel. CBP agents and
the Panamanian National Police coordinated interdiction of the vessels which were suspected to be
part of a coordinated smuggling effort with another vessel. The effort led to the successful
interdiction of two 30-foot four-engine go fast boats each carrying approximately 20 barrels of fuel.
Further investigation led to the discovery of 110 bales of cocaine buried in the sand on the beach.




   Two 30-foot, 4-engine “go fast” speedboats carrying 20 barrels of fuel each, interdicted by CBP and Panamanian law
   enforcement. A total of 5,511 pounds of cocaine was seized, with a street value of more than $49 million.


CBP Air and Marine P-3 aircarft operating out of Puerto Rico and U.S. Coast Guard intercept
the fishing vessel Don Giovanny, 17,637 pounds of cocaine seized

In April 2008, a CBP Air and Marine P-3 aircraft, operating out of Puerto Rico, conducting a covert
search detected four small fishing vessels. One of the four vessels was the fishing vessel Don
Givoanny which a U.S. Coast Guard cutter intercepted and boarded. The interdiction resulted in the
seizure of 17,637 pounds of cocaine.




              The fishing vessel, Don Giovanny, interdicted 150 nautical miles east of Barbados,
              carrying 17,637 pounds of cocaine.




                                            SECTION I - OVERVIEW                                                   21
                                CBP Fights Human Smuggling
                          Dangerous, Often Deadly to Desperate Aliens

Border Patrol agents rescue 51 illegal aliens from tractor trailer, including three children

In mid-June 2008, Border Patrol agents in Laredo, Texas, disrupted a human smuggling attempt and
rescued 51 people. In the early morning hours, agents working at the Border Patrol check point north
of Laredo conducted an immigration inspection of the driver of a tractor trailer. As an agent talked to
the driver a Border Patrol canine alerted on the trailer, indicating the presence of hidden contraband
or people. Agents opened the sealed trailer and found 51 people sitting atop and among crates of
avocados. They were all illegal aliens from Mexico. The group included three children, ages 5, 10
and 16.
                          CBP Protects Trademarks from Counterfeiters

CBP officers seize millions of dollars worth of counterfeit Nike footwear

In May 2008, at the Los Angeles/Long Beach seaport, CBP officers confiscated 18,560 pairs of fake
Nike athletic shoes and 252 pairs of generic shoes that were put at the end of a shipping container to
conceal the counterfeit Nikes. The appraised domestic value of the shipment was $521,000.
However, if the shoes had been legitimate, their value would have been $2.6 million. Nike officials
advised CBP that they had not authorized the importer or exporter to use their trademark.




                                                      Los Angeles/Long Beach seaport: Two shipping
                                                      containers, the contents of which were declared as
                                                      “drainage pipeline fitting,” actually held 18,560 pairs
                                                      of counterfeit Nike athletic shoes. The counterfeit
                                                      shoes were confiscated to protect the trademark
                                                      holder.




22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
U. S. Secret Service
Department of Homeland Security

Digital Currency Business E-Gold pleads guilty to money laundering and illegal money
transmitting charges, forfeits $1.75 million

In July 2008, E-Gold, Ltd., an Internet-based digital currency business, and its three principal
directors and owners, pled guilty to criminal charges relating to money laundering and the operation
of an illegal money transmitting business. E-Gold and its corporate affiliate Gold & Silver Reserve
Inc., each pled guilty to conspiracy to engage in money laundering and conspiracy to operate an
unlicensed money transmitting business. The principal director of E-Gold and Chief Executive
Officer (CEO) of Gold & Silver Reserve Inc, Dr. Douglas Jackson, 51, of Melbourne, Florida, pled
guilty to conspiracy to engage in money laundering and operating an unlicensed money transmitting
business. Two other E-Gold directors, Barry Downey, 48, of Baltimore, and Reid Jackson, 45, of
Melbourne, each pled guilty to felony violations of District of Columbia law relating to operating a
money transmitting business without a license.

In addition to the fines and prison sentences, each of the defendants agreed that E-Gold and Gold &
Silver Reserve will move to fully comply with all applicable federal and state laws relating to
operating as a licensed money transmitting business and the prevention of money laundering, which
includes registering as money service businesses. The businesses will create a comprehensive money
laundering detection program that will require verified customer identification, suspicious activity
reporting and regular supervision by the Internal Revenue Service’s (IRS) Bank Secrecy Act
Division. E-Gold and Gold & Silver Reserve will hire a consultant to ensure their compliance with
applicable law and hire an auditor to verify the companies’ claims that all transactions are fully back
by gold bullion.

At sentencing, E-Gold and Gold and Silver Reserve face a maximum fine of $3.7 million. Douglas
Jackson faces a maximum prison sentence of 20 years and combined fines for the offenses totaling
$750,000. Downey and Jackson each face a maximum of five years in prison and a fine of $25,000.

Additionally, as part of the plea, E-Gold and Gold & Silver Reserve agreed to forfeiture in the
amount of $1.75 million in the form of a money judgment for which they are jointly and severally
liable.

Sentencing for all defendants is set for November 2008.

AdSurfDaily (ASD) investigated for questionable business practices involving a Ponzi scheme
principal, $93.5 million seized to date

In August 2008, Secret Service agents in Florida executed a series of federal search and seizure
warrants on business locations, residences, and bank accounts linked to AdSurfDaily, Inc (ASD).
The search and seizure followed an investigation that revealed ASD was engaging in questionable
business practices that operated on a pyramid or Ponzi scheme principle.

Ponzi schemes promote allegedly lucrative business opportunities, when in reality there is in fact no
underlying profitable business to support the payments promoters say they will make to the investors
or participants. The Internet is increasingly used as a vehicle to promote each of these types of frauds

                                        SECTION I - OVERVIEW                                         23
and while Ponzi schemes have evolved with technology, the basic premise remains the same, later
investors’ funds are used to pay the earlier investors.

The version of the Ponzi scheme Secret Service investigators uncovered in the ADS investigation is
referred to as an “auto-surf” program, a form of online advertising that claims to generate revenue
from so-called “advertisers” who pay fees to have their website displayed to other viewers through
the host’s web-based operation. As part of the program and to encourage more advertisers to pay the
membership fee, the host pays the advertisers a so-called rebate for viewing fellow advertisers’ web
pages, while encouraging the recruitment of new advertisers by paying a referral fee. In this Ponzi
model, the host generates most, if not all, of its funding from membership fees, and therefore must
use money received from later advertisers to pay rebates and referral fees to earlier advertisers.
These programs collapse when new membership fees fail to cover the payouts promised to existing
members.

In August 2008, the Florida Attorney General filed a lawsuit against ADS and its president, Thomas
A. “Andy” Bowdoin Jr., seeking civil damages and an injunction against the company to prohibit
them from engaging in future deceptive marketing schemes. The U.S. Secret Service has identified
and frozen various funds, raising the total of assets seized in this matter to more than $93.5 million.


U. S. Coast Guard
Department of Homeland Security

The U.S. Coast Guard continues its close working relationship with the legacy Customs bureaus and
functions in a member-bureau capacity. The Coast Guard also maintains a close working relationship
with the Drug Enforcement Administration (DEA) of the Department of Justice, assisting with drug
boat interceptions on the high seas which are then turned over to the Department of Justice for
prosecution.

U.S. Coast Guard Cutters Dauntless and Forward work together to capture $52 million in
cocaine from the Honduran fishing vessel Miss Alyssa

In March 2008, the U.S. Coast Guard Cutter Forward offloaded approximately 1,600 pounds of
cocaine and turned over six suspected smugglers to federal agents for prosecution at Naval Station
Mayport, Florida. The crew of the Coast Guard Cutter Forward located the illegal narcotics in a
hidden compartment aboard the Honduran fishing vessel, Miss Alyssa, on February 25, 2008, in the
western Caribbean Sea. The Miss Alyssa was originally boarded by the Coast Guard Cutter
Dauntless which found evidence of illegal narcotics with the use of an ion scan machine but had to
depart the investigation for another mission before the hidden compartments could be located.

          “This case was an outstanding example of multiple unit coordination ashore and at sea.
             Detailed search efforts and a thorough relief by Cutter Dauntless …. helped our
                          boarding team zero in on the hidden compartments.”

                Cmdr. Matthew Sibley, Commanding Officer of the Coast Guard Forward




24         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
                                          The Coast Guard Dauntless, left, is a 210-foot
                                          medium endurance cutter from Galveston, Texas.
                                          The Coast Guard Forward is a 270-foot medium
                                          endurance cutter from Portsmouth, Virginia. The
                                          Dauntless discovered evidence of drugs on the Miss
                                          Alyssa, but had to depart to another investigation.
                                          A further search by the Forward discovered hidden
                                          compartments of the Miss Alyssa and 1,600 pounds
                                          of cocaine with a street value of $52 million.




Coast Guard Dauntless.                      Miss Alyssa, foreground, and Coast
                                            Guard Forward, background.




                         SECTION I - OVERVIEW                                           25
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used.

Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized currency,
initially deposited into a suspense account, or holding account, is transferred to the Fund as forfeited
revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the Fund as
forfeited revenue. It is this forfeiture revenue that comprises the budget authority for meeting
expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable, or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities. Each of them is described below.

Mandatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following forfeiture,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcement Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by Treasury law enforcement bureaus leading to Justice
forfeitures. SEF revenue is available for federal law enforcement purposes of any Treasury law
enforcement organization or law enforcement bureau that participates in the Treasury Forfeiture
Fund. In FY 2008, the Fund allocated $32.0 million in SEF spending to the law enforcement
agencies. The actual expense for FY 2008 was $17.9 million.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. The Fund declared a Super Surplus in the amount of $51.0 million for FY 2008. The actual
expense for FY 2008 was $34.9 million.


26         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability.

In addition, the Fund continues to support record levels of sharing of federal forfeitures with the state
and local and foreign governments that contributed to the successful seizure and forfeiture activity of
the Fund. The Fund provided $130.0 million toward equitable sharing expenses in FY 2008, just
slightly down from $140 million in FY 2007, representing 25 percent of the regular mandatory
expense budget. The actual expense for FY 2008 was $90.2 million. The higher allocation levels for
FY 2007 and FY 2008 also reflect the higher forfeiture revenue earnings for those years. These are
critical resources afforded by policy of the Treasury Forfeiture Fund to protect and preserve the
valuable working relationships between our federal law enforcement bureaus and the critically
important state, local and foreign law enforcement agencies that work with them in an investigative
capacity day-in and day-out.

Strategic Mission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by Treasury law enforcement bureaus to disrupt and dismantle criminal
enterprises. The goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s
national asset forfeiture program in a manner that results in federal law enforcement’s continued and
effective use of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle
criminal activity. To achieve our mission and goal, the program must be administered in a fiscally
responsible manner that seeks to minimize the administrative costs incurred, thereby maximizing the
benefits for law enforcement and the society it protects.

Multi-Departmental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2008,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. FY 2008 posed some management challenges including continued oversight of
escalating general property contract expenses associated with higher revenue levels. In addition,
commensurate with the high revenue year, there were additional expenses incurred by the bureaus.
In the midst of this period of growth and change, the Fund’s family of law enforcement bureaus
continued their hard work of federal law enforcement and the application of asset forfeiture as a
sanction to bring criminals to justice.

FY 2008 continued a pattern of robust revenue years with regular revenue of $386.4 million from all
sources, surpassing the FY 2007 banner year by 6 percent. As we enter fiscal year 2009, the Fund
                                        SECTION I - OVERVIEW                                          27
remains focused on support for strategic investigative initiatives that will have the greatest impact on
national and international criminal enterprise including valuable training and investigative expense
funding which emphasizes high impact cases.


Performance Measure

In FY 2008, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2008 is as follows:


            Performance Measure                          FY 2007           FY 2008           FY 2008
                                                          Actual            Target            Actual

Percent of forfeited cash proceeds resulting from         84.18%              75%              86.91%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2008. This is a fixed target for the Fund,
designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure activity
that is important to the overall federal law enforcement mission. The final percentage for FY 2008
was 86.91 percent, well above target. This compares with our FY 2007 and FY 2006 performance of
84.18 percent and 72.90 percent, respectively. This achievement is excellent and reflects Fund
management’s longstanding emphasis on high-impact forfeiture strategies as well as the use of Fund
authorities to assist member bureaus with larger cases that may take longer or require additional
resources not otherwise available. This measure was put into effect in FY 2001.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.




28         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2008.

These statements have been prepared to disclose the financial position of the Fund, its net costs,
changes in net position, and budgetary resources, pursuant to the requirements of the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994 (GMRA). While the
financial statements have been prepared from the books and records of the Fund in accordance with
the formats prescribed by the Office of Management and Budget, the statements are different from
the financial reports used to monitor and control budgetary resources that are prepared from the same
books and records and are subsequently presented in federal budget documents. Further, the notes to
the financial statements and the independent auditor’s opinion and reports on internal control over
financial reporting, and compliance with laws and regulations are also integral components to
understanding fully the financial highlights of Fund operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2008 and 2007.

Net Position – End of Year. For FY 2008, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $426.8 million
versus $361.4 million at the end of FY 2007. Both years closed with a strong and viable net position
with annual revenue reaching well past the forecasted $250.0 million program level each year.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. Fund
management generally forecasts between $200.0 million and $250.0 million for the Fund from
regular seizure and forfeiture activities of our participating bureaus. For FY 2008, the Fund closed
with $386.4 million in Gross Non-Exchange Revenues versus a total for the FY 2007 closing of
$366.0 million, an increase of six (6) percent over FY 2007.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2008, Treasury Forfeiture Fund bureaus earned a total of $51.0 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $58.0 million during FY 2007, both excellent years. A
portion of these decreases reflects Fund management’s continued work with the Department of
Justice to identify delays and/or downward adjustments to percentages associated with Reverse Asset
Sharing payments to the Treasury Forfeiture Fund. This revenue affords Treasury management
significant funding flexibilities for our participating agencies as the authority is broad and not
confined to funding program costs but can be used for any law enforcement purpose of our


                                       SECTION I - OVERVIEW                                         29
participating bureaus. Significant projects will continue to be funded in FY 2009 if anticipated
revenue is received early enough in the fiscal year.

Cost of Operations. For FY 2008, the Cost of Operations totaled $171.9 million, up from $153.5
million in FY 2007. The cost of operations has increased with the higher revenue level as expected.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2008, investments totaled $1.03 billion, up from $928.1 million invested as of
September 30, 2007. Given the somewhat higher investment balance but lower interest rates on
Treasury securities over the prior year, investment income totaled $21.1 million in FY 2008 as
compared to $37.5 million in FY 2007.

Equitable Sharing with Federal, State and Local Governments, and Foreign countries. Each
year, the Fund pays tens of millions of dollars to state and local law enforcement agencies, and
foreign governments, for their participation in seizures that lead to forfeitures of the Treasury
Forfeiture Fund. State and local law enforcement agencies can use these resources to augment their
law enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the
local municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2008, the Fund shared a total of $90 million with other federal, state and local law
enforcement agencies, and another $0.2 million with foreign countries. This compares with $42.5
million shared with other federal, state and local law enforcement agencies during FY 2007, and
another $0.5 million with foreign countries in FY 2007.

Victim Restitution. During FY 2008, the Fund paid restitution to victims the amount of $6.1
million as compared with $4.9 million in FY 2007.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2008. Management will continue to emphasize high-impact cases by participating law
enforcement bureaus. The FY 2008 performance with forfeiture revenue earnings of over $386.4
million from all sources and a high rate of high-impact cases is truly a credit to the dedicated law
enforcement personnel of our participating law enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations increased to $171.9 million in FY 2008,
up from $153.5 million in FY 2007.

Intra-governmental Costs less Secretary’s Enforcement Fund and Super Surplus Expenses.
This net figure represents the amounts incurred by participating bureaus in running their respective
forfeiture programs. Secretary Enforcement Fund Expenses generally represent expenses that while
key to the law enforcement bureau are not costs of running the forfeiture program itself.

National Seized Property Contracts. One of the largest program costs of the Fund is the storage,

30         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
maintenance and disposal of real and personal property. During FY 2008, general property was
maintained by VSE Corporation and real property was maintained by EG&G Technical Services,
both contracts of the Department of the Treasury. In FY 2008, expenses of these two contracts
totaled $53.2 million as compared to expenses of the two contracts in FY 2007 of $46.6 million.

Statements: Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2008 to $1.26 billion, up from $1.13 billion million in FY
2007, an increase in asset value of nearly 12 percent. If seized currency, which is an asset in the
custody of the government but not yet owned by the government, is backed out of both figures, the
adjusted total assets of the Fund increased to $643.9 million in FY 2008, up from $584.0 million in
FY 2007. During FY 2008, total liabilities of the Fund increased to $837.7 million, up from $770.4
million in FY 2007. However, again, if seized currency, which is also shown as a liability because it
is not yet owned by the government, is backed out of both figures, the adjusted total liabilities of the
Fund decreased modestly to $217.2 million in FY 2008, down from $222.6 million in FY 2007.

With increased assets and decreased liabilities in FY 2008, the Cumulative Results of Operations, i.e.,
retained earnings, increased at the end of FY 2008 to a total of $426.8 million, up from $361.4
million at the end of FY 2007.

Financial and Program Performance -What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance.

Auditor’s Findings

FY 2008 Audit. The Fund’s independent auditors have given the FY 2008 financial statements an
Unqualified Opinion with no material weaknesses in the accounting for the Fund’s financial
statements. A previous long-standing significant deficiency about the recording of indirect overhead
expenses of property to the line item level has been reduced to a Management Letter finding and is
expected to be fully resolved in FY 2009. The significant deficiency identified in FY 2007 regarding
the timeliness of post-inventory updates to SEACATS, the Fund’s seized and forfeited property
inventory system, has been resolved.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2008 “in the
black,” with the necessary resources to commence the business of the asset forfeiture program for FY
2009. Fund management declared a Super Surplus from FY 2008 operations and will work to
recognize the hard work of our participating bureaus in the allocation of these resources.




                                        SECTION I - OVERVIEW                                         31
A Look Forward


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, high-impact major case initiatives and training to support these areas of
emphasis. This has and will continue to be the key to the growing success and law enforcement reach
of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

•    The financial statements have been prepared to report the financial position and results of
     operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

•    While the statements have been prepared from the books and records of the entity in accordance
     with the formats prescribed by OMB, the statements are in addition to the financial reports used
     to monitor and control budgetary resources which are prepared from the same books and records.

•    The statements should be read with the realization that they are for a component of the U.S.
     government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
     without legislation that provides resources to do so.




32           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
gka, P.C.                                                           Certified Public Accountants | Management Consultants



1015 18th Street, NW                    Independent Auditor's Report on Financial Statements
      Suite 200
  Washington, DC
        20036              Inspector General
                           United States Department of the Treasury
   Phone: 202-857-1777
    Fax: 202-857-1778      Washington, D.C.
 Website: www.gkacpa.com


                           We have audited the Principal Statements (balance sheets and the related statements of
                           net cost, changes in net position, and budgetary resources, hereinafter referred to as
                           “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
                           as of and for the years ended September 30, 2008 and 2007. These financial statements
                           are the responsibility of Fund Management. Our responsibility is to express an opinion
                           on these financial statements based on our audits.

                           We conducted our audits in accordance with auditing standards generally accepted in
                           the United States of America; the standards applicable to financial audits contained in
                           Government Auditing Standards, issued by the Comptroller General of the United
                           States; and applicable provisions of Office of Management and Budget (OMB)
                           Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those
                           standards require that we plan and perform the audits to obtain reasonable assurance
                           about whether the financial statements are free of material misstatement. An audit
                           includes examining, on a test basis, evidence supporting the amounts and disclosures
                           in the financial statements. An audit also includes assessing the accounting principles
                           used and significant estimates made by Fund Management, as well as evaluating the
                           overall financial statement presentation. We believe that our audits provide a
                           reasonable basis for our opinion.

                           In our opinion, the financial statements referred to above present fairly, in all material
                           respects, the financial position of the Fund as of September 30, 2008 and 2007, and its
                           net costs, changes in net position, and budgetary resources, for the years then ended, in
                           conformity with accounting principles generally accepted in the United States of
                           America.

                           In accordance with Government Auditing Standards, we have also issued a report
                           dated October 31, 2008, on our consideration of the Fund's internal control over
                           financial reporting and a report dated October 31, 2008, on our tests of its compliance
                           with laws, regulations, and contracts. These reports are an integral part of an audit
                           performed in accordance with Government Auditing Standards, and these reports
                           should be read in conjunction with this report in considering the results of our audits.

                           Our audits were conducted for the purpose of forming an opinion on the financial
                           statements referred to in the first paragraph of this report as a whole. The information

                                                                      Member of the American Institute of Certified Public Accountants
presented in Section I: Overview, Section IV: Required Supplemental Information, and Section V: Other
Accompanying Information is not a required part of the financial statements but is supplementary
information required by accounting principles generally accepted in the United States of America, OMB
Circular A-136, Financial Reporting Requirements, or the Treasury Forfeiture Fund Act of 1992. We
applied certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, such information
has not been subjected to the auditing procedures applied in the audits of the financial statements and,
accordingly, we express no opinion on it.




October 31, 2008




34          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
gka, P.C.                                                         Certified Public Accountants | Management Consultants



1015 18th Street, NW        Independent Auditor's Report on Internal Control over Financial Reporting
      Suite 200
  Washington, DC           Inspector General
        20036              United States Department of the Treasury
                           Washington, D.C.
   Phone: 202-857-1777
    Fax: 202-857-1778
 Website: www.gkacpa.com   We have audited the Principal Statements (balance sheet and the related statements of
                           net cost, changes in net position, and budgetary resources, hereinafter referred to as
                           “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
                           as of and for the year ended September 30, 2008, and have issued our report thereon
                           dated October 31, 2008. We conducted our audit in accordance with auditing standards
                           generally accepted in the United States of America; the standards applicable to
                           financial audits contained in Government Auditing Standards, issued by the
                           Comptroller General of the United States; and, applicable provisions of Office of
                           Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
                           Financial Statements.

                           In planning and performing our audit, we considered the Fund’s internal control over
                           financial reporting by obtaining an understanding of the design effectiveness of the
                           Fund’s internal control, determining whether these internal controls had been placed in
                           operation, assessing control risk, and performing tests of controls as a basis for
                           designing our auditing procedures for the purpose of expressing our opinion on the
                           financial statements. We limited our internal control testing to those controls
                           necessary to achieve the objectives described in OMB Bulletin No. 07-04 and
                           Government Auditing Standards. We did not test all internal controls relevant to
                           operating objectives as broadly defined by the Federal Managers’ Financial Integrity
                           Act of 1982, such as those controls relevant to ensuring efficient operations. The
                           objective of our audit was not to express an opinion on the effectiveness of the Fund’s
                           internal control over financial reporting. Consequently, we do not provide an opinion
                           on internal control over financial reporting.

                           Our consideration of the internal control over financial reporting was for the limited
                           purpose described in the preceding paragraph and would not necessarily disclose all
                           deficiencies in internal control over financial reporting that might be significant
                           deficiencies or material weaknesses. Under standards issued by the American Institute
                           of Certified Public Accountants, a control deficiency exists when the design or
                           operation of a control does not allow management or employees, in the normal course
                           of performing their assigned functions, to prevent or detect misstatements on a timely
                           basis. A significant deficiency is a control deficiency, or combination of control
                           deficiencies, that adversely affects the Fund’s ability to initiate, authorize, record,
                           process, or report financial data reliably in accordance with generally accepted
                           accounting principles, such that there is more than a remote likelihood that a
                           misstatement of the Fund’s financial statements that is more than inconsequential will
                           not be prevented or detected by the Fund’s internal control. A material weakness is a
                                                                     Member of the American Institute of Certified Public Accountants
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected by
the Fund’s internal control. Because of inherent limitations in internal control, misstatements
due to error or fraud may nevertheless occur and not be detected. We did not identify any deficiencies
in internal control over financial reporting that we consider to be material weaknesses, as defined
above.

However, and in accordance with Government Auditing Standards, we noted a certain matter involving
the internal control and its operation that we have reported to Fund Management in a separate letter dated
October 31, 2008.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should not be
used by anyone other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




October 31, 2008




36          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
gka, P.C.                                                         Certified Public Accountants | Management Consultants



1015 18th Street, NW
      Suite 200              Independent Auditor's Report on Compliance with Laws and Regulations
  Washington, DC
        20036              Inspector General
                           United States Department of the Treasury
   Phone: 202-857-1777     Washington, D.C.
    Fax: 202-857-1778
 Website: www.gkacpa.com
                           We have audited the Principal Statements (balance sheet and the related statements of
                           net cost, changes in net position, and budgetary resources, hereinafter referred to as
                           “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
                           as of and for the year ended September 30, 2008, and have issued our report thereon
                           dated October 31, 2008. We conducted our audit in accordance with auditing standards
                           generally accepted in the United States of America; the standards applicable to
                           financial audits contained in Government Auditing Standards, issued by the
                           Comptroller General of the United States; and, applicable provisions of Office of
                           Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
                           Financial Statements.

                           The management of the Fund is responsible for complying with laws, regulations, and
                           contracts applicable to the Fund. As part of obtaining reasonable assurance about
                           whether the Fund’s financial statements are free of material misstatement, we
                           performed tests of its compliance with certain provisions of laws, regulations, and
                           contracts, noncompliance with which could have a direct and material effect on the
                           determination of financial statement amounts, and certain other laws and regulations
                           specified in OMB Bulletin No. 07-04, including the requirements referred to in the
                           Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our
                           tests of compliance to these provisions and we did not test compliance with all laws,
                           regulations, and contracts applicable to the Fund. Providing an opinion on compliance
                           with certain provisions of laws, regulations, and contracts was not an objective of our
                           audit and, accordingly, we do not express such an opinion.

                           The results of our tests of compliance disclosed no instances of noncompliance with
                           laws, regulations, and contracts discussed in the preceding paragraph, exclusive of
                           FFMIA, that are required to be reported under Government Auditing Standards or
                           OMB Bulletin No. 07-04.

                           Under FFMIA, we are required to report whether the Fund’s financial management
                           systems substantially comply with the Federal financial management systems
                           requirements, applicable Federal accounting standards, and the United States
                           Government Standard General Ledger at the transaction level. To meet this
                           requirement, we performed tests of compliance with FFMIA section 803(a)
                           requirements.
The results of our tests of FFMIA disclosed no instances in which the Fund’s financial management
systems did not substantially comply with the three requirements discussed in the preceding paragraph.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be and should not be
used by anyone other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




October 31, 2008




38          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
          SECTION III

FINANCIAL STATEMENTS AND NOTES
                                 Department of the Treasury Forfeiture Fund
                                             BALANCE SHEETS
                                     As of September 30, 2008 and 2007
                                            ( Dollars in Thousands)

                                                                    2008                         2007
Assets:
   Intragovernmental :
     Fund balance with Treasury                                $       9,936                $     48,678
     Investments and related interest (Note 3)                     1,030,653                     928,069
     Advances (Note 5)                                                   270                         240

   Total Intragovernmental                                         1,040,859                     976,987

     Cash and other monetary assets (Note 6)                         136,855                      76,553
     Accounts receivable                                               1,208                       1,470

                                                                     138,063                      78,023
     Forfeited property (Note 7)
       Held for sale, net of mortgages, liens and claims              83,599                      74,146
       To be shared with federal, state or local, or foreign
           governments                                                 1,966                       2,588
     Total forfeited property, net of mortgages, liens
        and claims                                                    85,565                      76,734

Total Assets                                                   $   1,264,487                $   1,131,744

Liabilities:
   Intragovernmental:
     Distributions payable
        Other federal agencies                                 $      13,035                $     20,287
     Accounts payable                                                 28,636                      13,195

   Total Intragovernmental                                            41,671                      33,482

     Seized currency and other monetary instruments (Note 9)         620,541                     547,772
     Distributions payable (Note 10)
       State and local agencies and foreign governments               68,631                      85,601
     Accounts payable                                                 21,300                      26,768
     Deferred revenue from forfeited assets                           85,565                      76,734

Total Liabilities                                                    837,708                     770,357
Net Position:
  Cumulative results of operations (Note 11)                         426,779                     361,387

Total Liabilities and Net Position                             $   1,264,487                $   1,131,744




               The accompanying notes are an integral part of these financial statements.
                      SECTION III - FINANCIAL STATEMENTS AND NOTES                                          39
                               Department of the Treasury Forfeiture Fund
                                      STATEMENTS OF NET COST
                             For the years ended September 30, 2008 and 2007
                                           (Dollars in Thousands)


                                                                         2008                 2007
Program:
ENFORCEMENT

     Intragovernmental:
        Seizure investigative costs and asset management            $     69,779        $          62,915
        Other asset related contract services                              6,964                    4,401
        Awards to informer                                                    99                      319
        Data systems, training and others                                 31,309                   30,125

     Total Intragovernmental                                             108,151                   97,760

     With the Public:
       National contract services seized property and other               53,235                   46,635
      Joint operations                                                    10,490                    9,111

     Total with the Public                                                63,725                   55,746

Net Cost of Operations                                              $    171,876        $         153,506




                     The accompanying notes are an integral part of these financial statements.
40              TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2008
                                Department of theTreasury Forfeiture Fund
                             STATEMENTS OF CHANGES IN NET POSITION
                              For the years ended September 30, 2008 and 2007
                                            (Dollars in Thousands)


                                                                                           2008            2007

Net Position - Beginning of year                                                      $   361,387     $   236,757
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
       Investment interest income                                                           21,082         37,544
   Public
       Forfeited currency and monetary instruments                                         412,151        207,956
       Sales of forfeited property net of mortgages and claims                              52,611         44,236
       Proceeds from participating with other federal agencies                              50,948         57,952
       Value of property transferred in equitable sharing                                    8,095          9,840
       Payments in lieu of forfeiture, net of refund (Note 19)                            (166,561)        (3,184)
       Reimbursed costs                                                                      4,352          4,789
       Others                                                                                3,698          6,860

   Total Gross Non-Exchange Revenues                                                      386,376         365,993

Less: Equitable Sharing
   Intragovernmental
       Federal                                                                             (11,551)         (9,806)
   Public
       State and local agencies                                                            (78,498)        (32,743)
       Foreign countries                                                                      (177)           (514)
       Victim restitution                                                                   (6,086)         (4,871)
                                                                                           (84,761)        (38,128)

   Total Equitable Sharing                                                                 (96,312)        (47,934)

Total Non-Exchange Revenues, Net                                                          290,064         318,059
Transfers-Out
   Intragovernmental
   Super surplus (Note 13)                                                                 (34,871)        (27,474)
   Secretary's enforcement fund (Note 14)                                                  (17,925)        (12,449)

Total Transfers-Out                                                                        (52,796)        (39,923)

Total Financing Sources- Net                                                               237,268         278,136
Net Cost of Operations                                                                    (171,876)       (153,506)

Net Results of Operations                                                                   65,392        124,630

Net Position - End of Year                                                            $   426,779     $   361,387




                       The accompanying notes are an integral part of these financial statements.
                             SECTION III - FINANCIAL STATEMENTS AND NOTES                                             41
                                 Department of theTreasury Forfeiture Fund
                               STATEMENTS OF BUDGETARY RESOURCES
                               For the years ended September 30, 2008 and 2007
                                             (Dollars in Thousands)


                                                                           2008                        2007
Budgetary Resources:

     Unobligated balance - beginning of year                         $     160,117                $    82,935
     Recoveries of prior year unpaid obligations                            41,607                     17,231
     Budget authority                                                      578,645                    451,463

Total Budgetary Resources                                            $     780,369                $   551,629


Status of Budgetary Resources:

     Obligations incurred                                            $     597,287                $   391,512
     Unobligated balances - available                                      183,082                    160,117

Total Status of Budgetary Resources                                  $     780,369                $   551,629

Change in Obligated Balance:

     Obligated balance, net - beginning of year                      $     316,085                $    244,515
     Obligations incurred                                                  597,287                     391,512
     Less: Gross outlays                                                  (513,622)                   (302,711)
     Less: Recoveries of prior year unpaid obligations, actual             (41,607)                    (17,231)

Obligated balance, net - end of year                                 $     358,143                $   316,085


Net Outlays                                                          $     513,622                $   302,711




                     The accompanying notes are an integral part of these financial statements.
42            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2008
Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was established
by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is codified at 31
USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus under a single
forfeiture fund program administered by the Department of the Treasury (Treasury). Treasury law
enforcement bureaus fully participating in the Fund upon enactment of this legislation were the U.S.
Customs Service (Customs); the Internal Revenue Service (IRS); the United States Secret Service (Secret
Service); the Bureau of Alcohol, Tobacco and Firearms (ATF); the Financial Crimes Enforcement
Network (FinCEN); and the Federal Law Enforcement Training Center (FLETC). FinCEN and FLETC
contribute no revenue to the Fund and receive relatively few distributions from the Fund. The U.S. Coast
Guard, formerly part of the Department of Transportation, now part of the Department of Homeland
Security (DHS), also participates in the Fund. However, all Coast Guard seizures are treated as Customs
seizures because the Coast Guard lacks seizure authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs Enforcement
(ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS join these bureaus. The
Fund continues in its capacity as a multi-Departmental Fund, representing the interests of law
enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this no-
year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of these
expenses, referred to as discretionary expenses, are subject to annual appropriation limitations. Others,
referred to as non-discretionary (mandatory) expenses, are limited only by the availability of resources in
the Fund. Both expense categories are limited in total by the amount of revenue in the Fund. The Fund
is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic use
of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The goal of
the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in a manner
that results in federal law enforcement’s continued and effective use of asset forfeiture as a high-impact
law enforcement sanction to disrupt and dismantle criminal activity. Under a Memorandum of
Understanding (MOU) with Treasury, CBP acts as the executive agent for certain operations of the Fund.
Pursuant to that executive agency role, CBP’s National Finance Center (NFC) is responsible for
accounting and financial reporting for the Fund, including timely and accurate reporting and compliance
with Treasury, the Comptroller General and the Office of Management and Budget (OMB) regulations
and reporting requirements.




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                  43
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation 31 USC 9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA) requires
executive agencies, including the Treasury, to produce audited consolidated accountability reports and
related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity with
accounting principles generally accepted in the United States of America (GAAP) and specified by OMB
in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP for federal
entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is
designated the official accounting standards setting body of the Federal Government by the American
Institute of Certified Public Accountants.

Financial Statements Presented

These financial statements are provided to meet the requirements of the Chief Financial Officers Act of
1990, and the Government Management Reform Act of 1994. They consist of the balance sheet, the
statement of net cost, the statement of changes in net position, and the statement of budgetary resources,
all of which are prescribed by OMB.

Comparative financial statements are presented in order to provide a better understanding of, and
identifying trends in the financial position and results of operations of the Fund.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to state
and local law enforcement agencies, other federal agencies, and foreign governments, in accordance with
the various laws and policies governing the operations and activities of the Fund. Under the TFF Act, the
Fund is authorized to pay certain expenses using discretionary or mandatory funding authorities of the
Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase of
awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the criteria
set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft available for
official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private persons for
expenses incurred while cooperating with a Treasury law enforcement organization in investigations;
publication of the availability of certain awards; and payment for training foreign law enforcement
personnel with respect to seizure or forfeiture activities of the Fund. Discretionary expenses are subject
to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper expenses
of the seizure, including investigative costs and purchases of evidence and information leading to seizure,
holding cost, security costs, etc., awards of compensation to informers under section 619 of the Tariff Act
44          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
(19 USC 1619); satisfaction of liens against the forfeited property, and claims of parties with interest in
forfeited property; expenses incurred by state and local law enforcement agencies in joint law
enforcement operations with law enforcement agencies participating in the Fund; and equitable sharing
payments made to state and local law enforcement agencies in recognition of their efforts in a Fund
seizure leading to forfeiture. These mandatory expenses are paid pursuant to the permanent indefinite
authorities of the Fund; are only limited by revenue in the Fund each year and do not require additional
Congressional action for expenditure.

The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a participating
bureau. Reimbursable expenses are incurred by the respective bureaus participating in the Fund against
their appropriation and then submitted to the Fund for reimbursement. The bureaus are reimbursed
through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and Collection (IPAC)
System. Certain expenses such as equitable sharing, liens, claims and state and local joint operations
costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As such,
employees of both Departments may perform certain operational and administrative tasks related to the
Fund. Payroll costs of employees directly involved in the security and maintenance of forfeited property
are also recorded as expenses in the financial statements of the Fund (included in the line item “seizure
investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated seizures)
are recognized as revenue when the payment is received. Revenue received from participating with
certain other federal agencies is recognized when the payment is received. Operating costs are recorded
as expenses and related liabilities when goods are received or services are performed. Certain probable
equitable sharing liabilities existing at year end are accrued based on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or guaranteed
by, the United States Government. Interest is reported to the Fund and recorded monthly as revenue in
the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing
sources are required by statute to be used for designated activities, benefits, or purposes, and must be
accounted for separately from the Government’s general revenues. In accordance with SFFAS 27,
Earmarked Funds, all of the TFF’s revenue meets this criteria and constitutes an earmarked fund.

The Federal Government does not set aside assets to pay future benefits or other expenditures associated
with earmarked funds. The cash collected from earmarked funds are deposited in the U.S. Treasury,
which uses the cash for general government purposes. Treasury securities are issued to the TFF as
                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                  45
evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S. Treasury.
Because the TFF and U.S. Treasury are both parts of the government, these assets and liabilities offset
each other from the standpoint of the government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. Government-wide financial statements.
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the TFF requires redemption of these securities to make
expenditures, the government finances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing other
expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with federal,
state and local law enforcement agencies or foreign governments, which provided direct or indirect
assistance in the related seizure. In addition, the Fund may transfer forfeited property to other federal
agencies, which would benefit from the use of the item. A class of asset distribution was established for
victim restitution in 1995. These distributions include property and cash returned to victims of fraud and
other illegal activity. Upon approval by Fund management to share or transfer the assets, both revenue
from distributed forfeited assets and distributions are recognized for the net realizable value of the asset
to be shared or transferred, thereby resulting in no gain or loss recognized. Revenue and /or expenses are
recognized for property and currency, which are distributed to or shared with non-federal agencies, per
SFFAS No. 7, Accounting for Revenue and Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from transactions
among federal agencies. These assets are claims of a federal entity against another federal entity. Entity
assets consist of cash or other assets, which could be converted into cash to meet the Fund's current or
future operational needs. Such other assets include investments of forfeited balances, accrued interest on
seized balances, receivables, and forfeited property, which are held for sale or to be distributed.

•    Fund Balance with Treasury – This represents amounts on deposit with Treasury.

•    Investments and Related Interest Receivable – This includes forfeited cash held by the Fund and
     seized currency held in the Customs Suspense Account that had been invested in short term U.S.
     Government Securities.

•    Receivables – Intragovernmental receivables principally represent monies due from the law
     enforcement agencies participating in the Fund. The values reported for other receivables are
     primarily funds due from the national seized property contractor for properties sold; the proceeds of
     which have not yet been deposited into the Fund. No allowance has been made for uncollectible
     amounts as the accounts recorded as a receivable at year end were considered to be fully collectible
     as of September 30, 2008 and 2007.

•    Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
     participating in the Fund for orders to be delivered.

46           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
•   Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited, and
    forfeited currency held as evidence.

•   Forfeited Property and Currency – Forfeited property and currency is recorded in the respective
    seized property and forfeited asset tracking systems at the estimated fair value at the time of seizure.
    However, based on historical sales experiences for the year, properties are adjusted to reflect the
    market value at the end of the fiscal year for financial statement reporting purposes. Direct and
    indirect holding costs are not capitalized for individual forfeited assets. Forfeited currency not
    deposited into the Fund is included as part of Entity Assets - Cash and Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction
of deferred revenue from forfeited assets when the asset is forfeited. The allowance includes mortgages
and claims on forfeited property held for sale and a minimal amount of claims on forfeited property
previously sold. Mortgages and claims expenses are recognized when the related asset is sold and is
reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain additional
disclosures in the notes to the financial statements, including an analysis of changes in seized and
forfeited property and currency, for both carrying value and quantities, from that on hand at the
beginning of the year to that on hand at the end of the year. These analyses are disclosed in Notes 8 and
9.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among federal
agencies. These assets are claims of a federal entity against another federal entity. Non-entity assets are
not considered as financing sources (revenue) available to offset operating expenses, therefore, a
corresponding liability is recorded and presented as governmental liabilities in the balance sheet to reflect
the custodial/fiduciary nature of these activities.

•   Seized Currency and Property – Seized Currency is defined as cash or monetary instruments that
    are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized monetary
    instruments (cash and cash equivalents) be recognized as an asset in the financial statements and a
    liability be established in an amount equal to the seized asset value due to: (i) the fungible nature of
    monetary instruments, (ii) the high level of control that is necessary over these assets; and (iii) the
    possibility that these monies may be returned to their owner in lieu of forfeiture.

    Seized property is recorded at its appraised value at the time of seizure. The value is determined by
    the seizing entity and is usually based on a market analysis such as a third party appraisal, standard
    property value publications or bank statements. Seized property is not recognized as an asset in the
    financial statements, as transfer of ownership to the government has not occurred as of September 30.
    Accordingly, seized property other than monetary instruments are disclosed in the footnotes in
    accordance with SFFAS No. 3.

•   Investments – This balance includes seized cash on deposit in the Fund’s suspense account held by
    Treasury which has been invested in short term U.S. Government Securities.

                           SECTION III - FINANCIAL STATEMENTS AND NOTES                                   47
•    Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
     seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on deposit
     held with other financial institutions and, cash on hand in vaults held at field office locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by available
budgetary resources. The components of such liabilities for the Fund are as follows:

•    Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
     related to equitable sharing payments and payments to be made by the Fund to the victims of fraud.

•    Accounts Payable – Amounts reported in this category include accrued expenses authorized by the
     TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

•    Seized Currency – Amounts reported in this category represent the value of seized currency that is
     held by the Fund which equals the amount of seized currency reported as an asset.

•    Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which had
     not yet been converted into cash through a sale. The amount reported here represents the value of
     these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
• Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2008. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

•    Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
     contracts and equitable sharing requests which have been obligated with current budget resources or
     delivered purchase orders and contracts that have not been invoiced. An expense and liability are
     recognized and the corresponding obligations are reduced as goods are received or services are
     performed. A portion of the equitable sharing requests that were in final stages of approval are
     recognized as liabilities at year end. Prior experience with the nature of this account indicated that a
     substantial portion of these requests were certain liabilities at year end. Prior to Fiscal Year 1999,
     expenses and liabilities were recognized and the corresponding obligations reduced when final
     management approval for an equitable sharing request was given (See also Distributions Payable at
     Note 10).

•    Results of Operations – This category represents the net difference, for the activity during the year,
     between: (i) financing sources including transfers, and revenues; and (ii) expenses.




48           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Note 3: Investments and Related Interest

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal debt
securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments are
always purchased at a discount and are reported at acquisition cost, net of discount. The discount is
amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs Suspense
Account. The Customs Suspense Account became the depository for seized cash for the Fund following
enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2008 and 2007,
respectively (dollars in thousands):

Entity Assets

                                                                      Unamortized       Investment,
   Description                                           Cost          Discount             Net
   September 30, 2008:
   Treasury Forfeiture Fund -
   35 days 0.160%
   U.S. Treasury Bills                              $    531,371         $      (83)    $   531,288

   Interest Receivable                                                                           55
   Total Investment, Net, and Interest
    Receivable                                                                          $   531,343

   Fair Market Value                                                                    $   531,302


                                                                      Unamortized       Investment,
   Description                                           Cost          Discount             Net
   September 30, 2007:
   Treasury Forfeiture Fund -
   28 days 3.315%
   U.S. Treasury Bills                              $    428,629     $       (1,105)    $   427,524

   Interest Receivable                                                                          855
   Total Investment, Net, and Interest
    Receivable                                                                          $   428,379

   Fair Market Value                                                                    $   427,973




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                 49
Non-entity Assets
                                                                     Unamortized           Investment,
                     Description                        Cost          Discount                 Net

     September 30, 2008:

     Treasury Forfeiture Fund – Seized Currency
     Suspense Account
     35 days 0.160%
     U.S. Treasury Bills                            $   499,388      $          (78)       $    499,310
     Fair Market Value                                                                     $    499,324

     September 30, 2007:

     Treasury Forfeiture Fund – Seized Currency
     Suspense Account
     28 days 3.315%
     U.S. Treasury Bills                            $   500,981      $     (1,291)         $    499,690
     Fair Market Value                                                                     $    500,214

Note 4: Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2008 and 2007, respectively,
(dollars in thousands):

                                                                    2008                   2007
      Seized currency:
          Intragovernmental Investments (Note 3)                $    499,310           $       499,690
          Cash and other monetary assets (Note 6)                    121,231                    48,082
      Total Non-Entity Assets                                        620,541                   547,772
      Total Entity Assets                                            643,946                   583,972
      Total Assets                                             $    1,264,487          $   1,131,744

Note 5: Advances

Advances amounted to $270 thousand and $240 thousand as of September 30, 2008 and 2007,
respectively.

Note 6: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well as
forfeited currency held as evidence, amounting to $15.6 million and $28.5 million as of September 30,
2008 and 2007, respectively.
50          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited seized
currency which is not invested in order to pay remissions, amounting to $121.2 million and $48.1 million
as of September 30, 2008 and 2007, respectively.

Note 7: Forfeited Property

The following summarizes the components of forfeited property (net), as of September 30, 2008 and
2007, respectively, (dollars in thousands):

                                                                           2008             2007
 Held for Sale                                                         $    95,149        $   79,882
 To be shared with federal, state or local, or foreign government            1,966             2,588
   Total forfeited property (Note 8)                                        97,115            82,470
 Less: Allowance for mortgages and claims                                  (11,550)           (5,736)
 Total forfeited property, net                                         $    85,565        $    76,734




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                               51
Note 8:            FY 2008 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and balances from October 1, 2007 to September 30, 2008.
(Dollar value is in thousands.)


                     10/1/07 Financial                                         10/1/07 Carrying
                    Statement Balance                 Adjustments                   Value                     Forfeitures              Deposits/Sales              Disposals/Transfers

                       Value       Number           Value       Number         Value      Number           Value      Number          Value       Number           Value       Number

Currency           $ 28,023                     $           -         -    $    28,023             -   $ 288,883            -    $ (320,420)               -   $       (160)             -
Other Monetary            -                 -
Instruments             448                 -               -         -            448             -        96,572          -          (96,709)            -              -              -
Subtotal             28,471                 -               -         -         28,471             -       385,455          -         (417,129)            -           (160)             -

Real Property        63,141            136       (14,799)             -       48,342          136         65,102          112       (25,728)          (119)       (6,590)           (17)
General Property      7,757          8,947        18,017              -       25,774        8,947         41,312       14,836       (12,351)        (2,488)      (25,723)        (1,129)
Vessels                 355             52           512              -          867           52          3,290          103        (3,620)           (77)         (218)            (6)
Aircraft                437              7           239              -          676            7            200            3          (244)            (4)            -              -
Vehicles             10,780          5,656        16,669              -       27,449        5,656         56,143       14,525       (53,777)       (15,374)      (12,124)        (1,141)
Subtotal             82,470         14,798        20,638              -      103,108       14,798        166,047       29,579       (95,720)       (18,062)      (44,655)        (2,293)
Grand Total        $110,941         14,798      $ 20,638              -    $ 131,579       14,798      $ 551,502       29,579    $ (512,849)       (18,062)    $ (44,815)        (2,293)


                                                                                                                                                                    Fair Market Value            9/30/08 Financial
                       Victim Restitution              Destroyed               Other Adjustments            Value Change             2008 Carrying Value               Adjustment                Statement Balance

                       Value       Number           Value       Number         Value      Number           Value      Number          Value       Number           Value       Number            Value     Number
Currency           $           -                                                19,082          -      $       (95)         -    $     15,313           -      $           -         -       $    15,313         -
Other Monetary
Instruments                    -            -               -         -              -             -             -          -              311             -               -             -           311             -
Subtotal                       -            -               -         -         19,082             -           (95)         -           15,624             -               -             -        15,624             -

Real Property                  -            -            -            -          7,636         99              764          -          89,526         211         (6,233)                -      83,293          211
General Property               -            -         (122)     (12,428)           376         59           (8,023)         -          21,243       7,797        (14,790)                -       6,453        7,797
Vessels                        -            -            -          (32)           183          4              (23)         -             479          44           (253)                -         226           44
Aircraft                                    -            -            -            (60)        (1)               -          -             572           5           (229)                -         343            5
Vehicles                       -            -            -         (269)          (870)      (283)            (313)         -          16,508       3,114         (9,708)                -       6,800        3,114
Subtotal                       -            -         (122)     (12,729)         7,265       (122)          (7,595)         -         128,328      11,171        (31,213)                -      97,115       11,171
Grand Total        $           -            -   $     (122)     (12,729)   $    26,347       (122)     $    (7,690)         -    $    143,952      11,171      $ (31,213)                -   $ 112,739       11,171




52                                                                 TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2008
Note 8 (Cont'd):   FY 2007 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and balances from October 1, 2006 to September 30, 2007.
(Dollar value is in thousands.)


                     10/1/06 Financial                                         10/1/06 Carrying
                    Statement Balance                 Adjustments                   Value                     Forfeitures             Deposits/Sales             Disposals/Transfers

                       Value       Number           Value       Number         Value      Number           Value       Number        Value       Number          Value         Number

Currency           $ 18,997                     $           -         -    $    18,997             -   $ 263,943             -   $ (269,656)            -    $           (4)           -
Other Monetary            -                 -
Instruments             283                 -               -         -            283             -           190           -             (9)          -                (5)           -
Subtotal             19,280                 -               -         -         19,280             -       264,133           -       (269,665)          -                (9)           -

Real Property        40,312            141        (8,304)             -         32,008        141         40,172           105      (30,022)         (119)         (4,214)          (11)
General Property      3,423          6,117         5,583              -          9,006      6,117         21,954        15,208       (3,541)         (544)         (1,076)         (932)
Vessels                 712             39           372              -          1,084         39          1,202            77       (1,481)          (65)            (15)           (2)
Aircraft                241              2           132              -            373          2            284             4            -             -               -             -
Vehicles             10,017          3,608         9,169              -         19,186      3,608         60,590        17,023      (40,970)      (13,364)         (9,828)         (929)
Subtotal             54,705          9,907         6,952              -         61,657      9,907        124,202        32,417      (76,014)      (14,092)        (15,133)       (1,874)
Grand Total        $ 73,985          9,907      $ 6,952               -    $    80,937      9,907      $ 388,335        32,417   $ (345,679)      (14,092)   $    (15,142)       (1,874)


                                                                                                                                                                  Fair Market Value          9/30/07 Financial
                       Victim Restitution              Destroyed               Other Adjustments            Value Change          2007 Carrying Value                Adjustment             Statement Balance

                       Value       Number           Value       Number         Value      Number           Value       Number        Value       Number          Value         Number       Value      Number
Currency           $           -                $           -                   14,743          -      $           -         -   $    28,023           -     $            -          -     $ 28,023          -
Other Monetary
Instruments                    -            -               -         -            (11)            -               -         -           448            -                 -            -         448             -
Subtotal                       -            -               -         -         14,732             -               -         -        28,471            -                 -            -      28,471             -

Real Property                  -            -            -            -         10,228         20              170           -      48,342           136           14,799              -      63,141        136
General Property               -            -         (129)     (11,353)         1,173        451           (1,613)          -      25,774         8,947          (18,017)             -       7,757      8,947
Vessels                        -            -            -          (10)            83         13               (6)          -         867            52             (512)             -         355         52
Aircraft                       -            -            -            -             19          1                -           -         676             7             (239)             -         437          7
Vehicles                       -            -            -         (182)        (1,455)      (500)             (74)          -      27,449         5,656          (16,669)             -      10,780      5,656
Subtotal                       -            -         (129)     (11,545)        10,048        (15)          (1,523)          -     103,108        14,798          (20,638)             -      82,470     14,798
Grand Total        $           -            -   $     (129)     (11,545)   $    24,780        (15)     $    (1,523)          -   $ 131,579        14,798     $    (20,638)             -   $ 110,941     14,798




                                                                                  SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                                   53
Note 9:            FY 2008 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or administratively forfeited. Because of the fungible nature of currency
and the high level of control necessary over these assets and the possibility that these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon
seizure. Seized property other than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)




                         9/30/07 Financial                                                                                                                                                                          9/30/08 Financial
                        Statement Balance                   Seizures                      Remissions                       Forfeitures                    Adjustments                  Value Changes               Statement Balance

                        Value       Number             Value       Number              Value       Number              Value        Number              Value      Number              Value      Number            Value      Number

Currency            $    535,538             -      $ 417,485               -      $    (22,265)           -       $    (288,883)           -       $   (32,242)           -       $    (1,170)          -       $ 608,463              -
Other Monetary
Instruments               12,234             -           98,788             -                 -            -             (96,572)           -            (2,372)           -                 -           -            12,078            -
Subtotal                 547,772             -          516,273             -           (22,265)           -            (385,455)           -           (34,614)           -            (1,170)          -           620,541            -

Real Property           279,550          752          110,175             198           (34,086)        (193)           (65,102)        (112)             6,460         (55)             816             -           297,813       590
General Property        339,804       16,983          134,948          24,178          (104,128)      (3,778)           (41,312)     (14,836)            (3,899)     (3,804)         (27,880)            -           297,533    18,743
Vessels                   7,889          112            7,518             222            (3,792)         (63)            (3,290)        (103)              (349)         (8)            (941)            -             7,035       160
Aircraft                  2,707           13            5,439              13            (3,326)          (5)              (200)          (3)              (516)         (1)            (863)            -             3,241        17
Vehicles                 64,341        8,655          113,850          19,486           (55,780)      (5,163)           (56,143)     (14,525)           (10,236)     (1,457)          (1,011)            -            55,021     6,996
Subtotal                694,291       26,515          371,930          44,097          (201,112)      (9,202)          (166,047)     (29,579)            (8,540)     (5,325)         (29,879)            -           660,643    26,506
Grand Total         $ 1,242,063       26,515        $ 888,203          44,097      $   (223,377)      (9,202)      $   (551,502)     (29,579)       $   (43,154)     (5,325)       $ (31,049)            -       $ 1,281,184    26,506




54                                                                       TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2008
Note 9 (Cont'd):   FY 2007 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or administratively forfeited. Because of the fungible nature of currency
and the high level of control necessary over these assets and the possibility that these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon
seizure. Seized property other than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)




                         9/30/06 Financial                                                                                                                                                                          9/30/07 Financial
                        Statement Balance                   Seizures                      Remissions                       Forfeitures                    Adjustments                  Value Changes               Statement Balance

                        Value       Number             Value       Number              Value       Number              Value        Number              Value      Number              Value     Number             Value      Number

Currency            $    452,065             -      $ 406,059               -      $    (65,402)           -       $    (263,943)           -       $     6,441            -       $      318            -       $ 535,538              -
Other Monetary
Instruments               12,550             -              219             -              (116)           -                (190)           -              (229)           -                -            -           12,234             -
Subtotal                 464,615             -          406,278             -           (65,518)           -            (264,133)           -             6,212            -              318            -          547,772             -

Real Property           278,470          701          116,070             269           (22,529)        (170)           (40,172)        (105)           (53,754)         57            1,465             -           279,550       752
General Property        237,133       14,676          318,012          24,598          (139,959)      (3,845)           (21,954)     (15,208)            (2,285)     (3,238)         (51,143)            -           339,804    16,983
Vessels                   4,272           92            8,649             147            (2,650)         (38)            (1,202)         (77)            (1,241)        (12)              61             -             7,889       112
Aircraft                  3,761           10           15,504              10           (13,266)          (3)              (284)          (4)            (3,233)          -              225             -             2,707        13
Vehicles                 51,731        7,610          126,987          23,274           (49,739)      (4,609)           (60,590)     (17,023)            (3,671)       (597)            (377)            -            64,341     8,655
Subtotal                575,367       23,089          585,222          48,298          (228,143)      (8,665)          (124,202)     (32,417)           (64,184)     (3,790)         (49,769)            -           694,291    26,515
Grand Total         $ 1,039,982       23,089        $ 991,500          48,298      $   (293,661)      (8,665)      $   (388,335)     (32,417)       $   (57,972)     (3,790)       $ (49,451)            -       $ 1,242,063    26,515




                                                                                        SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                                                55
Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $68.6 million and
$85.6 million as of September 30, 2008 and 2007, respectively. Fund management recognizes as a
liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2008 and 2007, respectively.
Prior experience with the nature of this account indicated that a substantial portion of these requests were
certain to be paid out by the Fund during the following fiscal year.

Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September 30,
2008 and 2007, respectively, (dollars in thousands):

                                                                2008               2007
                 Retained Capital                           $   132,959      $     64,045
                 Unliquidated Obligations                       228,428           172,712
                 Results of Operations                           65,392           124,630
                                                             $ 426,779        $ 361,387

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2008 and
2007, respectively, (dollars in thousands):

                                                                 2008             2007
                  Equitable Sharing                         $    88,181          $ 4,090
                  Mandatory                                     140,247           168,622
                                                            $ 228,428         $ 172,712

Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by the
participating agencies in their financial statements.

Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation of
amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used for law
enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $34.9 million and $27.5 million in fiscal years 2008 and 2007, respectively.



56          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Note 14: Secretary’s Enforcement Fund

31 USC 9703 (b)(5) is another category of permanent indefinite authority. These funds are available to
the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal Service
(USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement organizations
amounted to $17.9 million and $12.4 million in fiscal years 2008 and 2007, respectively.

Note 15: Commitments and Contingencies

A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES
There are no pending or threatened litigation claims or assessments exceeding $250,000. Last year’s
Note 15 referenced the class action lawsuit styled Julie Sueoka, et al. v. United States, Case No. 98-6313-
AAH (RCx)(C.D. Cal.). The class action was filed in the Central District of California in August 1998
against the seizing and forfeiting law enforcement agencies of the Departments of Treasury and Justice.
After years of discovery and final resolution as to which subclasses would be certified, the parties entered
into a settlement agreement, which was approved by the court on October 29, 2007. Claimants had until
December 10, 2007 to file a claim pursuant to the terms of the settlement agreement. The Fund’s
forfeiting law enforcement agencies (member agencies) received a total of 17 claims. The Executive
Office for Asset Forfeiture (EOAF) and the Fund’s member agencies reviewed each claim with the
Assistant U.S. Attorney and issued ruling letters either granting or denying each claim. As of June 6,
2008, the time for any TFF claimant to appeal his or her ruling had expired. The TFF denied all but three
claims, for a total claims payment of $9 thousand. The time for all appeals has been exhausted, and the
case is concluded. Additionally, EOAF’s share of the expenses for the implementation of the settlement
agreement was approximately $616 thousand most of which was billed for and paid prior to September
30, 2008. EOAF is awaiting invoices for approximately $47 thousand of the expenses.

There are no other contingencies to disclose.




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                   57
Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                             2008             2007

                    Gross Costs                           $ 171,876        $ 153,506
                    Earned Revenues                               -                -
                    Net Costs                             $ 171,876        $ 153,506

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2008 and 2007 are
$358.1 million and $316.1 million, respectively. This amount is fully covered by cash on hand in the
Fund and Entity Investments. The Fund does not have borrowing or contract authority and, therefore, has
no repayment requirements, financing sources for repayment, or other terms of borrowing authority. No
adjustments were required during the reporting period to budgetary resources available at the beginning
of the year. There are no legal arrangements, outside of normal government wide restrictions,
specifically affecting the Fund’s use of unobligated balances of budget authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2008 and 2007 consist of
the following (in thousands):

                                                                    2008             2007
              Recoveries of Prior Year Unpaid Obligations $         41,607      $    17,231

Recoveries of prior year obligations are the difference between amounts that Fund management obligated
(including equitable sharing) and amounts subsequently approved for payment against those obligations.

Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held for
later use.




58          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Note 19: Payments in Lieu of Forfeiture, Net of Refund

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2008 and
2007, respectively, (dollars in thousands):

                                                           2008               2007
                 Payments in Lieu of Forfeiture          $ 10,355           $ 7,547
                 Refunds                                  (176,916)          (10,731)
                 Total                                   ($ 166,561)        ($ 3,184)

Note 20: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the Fund’s
proprietary (net cost of operations) and budgetary accounting (net obligations) information.

                                                                             2008           2007
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                            $   597,287 $      391,512
        Less: Spending authority from offsetting
           Collections and recoveries                                       (41,607)       (17,231)
        Net Obligations                                                     555,680        374,281
    Other resources
        Transfers – out                                                     (52,796)       (39,923)
  Total Resources Used to Finance Activities                                502,884        334,358

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided                 (47,393)      (112,141)
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                             (10,386)       (10,046)
            Refunds                                                         (176,917)       (10,731)
            Equitable Sharing (federal, state/local and foreign)             (90,226)       (43,063)
            Victim restitution                                                (6,086)        (4,871)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                       (331,008)      (180,852)
  Total Resources Used to Finance the Net Cost of Operations                 171,876        153,506
  Net Cost of Operations                                                $   171,876 $      153,506




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                59
            SECTION IV

REQUIRED SUPPLEMENTAL INFORMATION

            (Unaudited)
Intragovernmental Amounts – Assets (Dollars in thousands)


                                                    2008                                                    2007
                              Fund                                                    Fund
                             Balance         Accounts                                Balance         Accounts
                               with         Receivable/                                with         Receivable/
     Partner Agency          Treasury        Advances          Investments           Treasury        Advances           Investments
 Departmental Offices        $      -       $         270      $           -        $         -     $             240   $       -
 Bureau of Public Debt              -                      -       1,030,653                  -                    -        928,069

 Totals                      $      -       $         270      $   1,030,653        $         -     $             240   $   928,069


Intragovernmental Amounts – Liabilities (Dollars in thousands)


                                                                                 2008               2007
                                                                               Accounts           Accounts
                                 Partner Agency                                Payable            Payable
                    Department of Justice                              $           2,280      $         11,955
                    Departmental Offices                                             897                   178

                    Department of Homeland Security                               10,752                 8,331

                    Department of Defense                                                 3                   -

                    Fincen                                                           925                      4

                    Tax and Trade                                                     22                     -
                    Internal Revenue Service                                      26,792                13,014
                    Totals                                             $          41,671      $         33,482


Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)

                                                    2008                                                    2007

                              Cost to Generate          Costs to Generate            Cost to Generate              Costs to Generate
                                 Exchange                Non-Exchange                   Exchange                    Non-Exchange
                             Intragovernmental         Intragovernmental            Intragovernmental             Intragovernmental
     Budget Functions             Revenue                   Revenue                      Revenue                       Revenue

Administration of
  Justice                    $                  -      $             108,151         $                  -         $           97,760




60            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):


                                                       2008                            2007
              Partner Agency                  In              Out             In              Out


 Department of Justice                   $         -      $         244   $        -      $           -
 Department of Homeland Security                   -           20,584              -           24,322
 Department of Treasury                            -                318            -            2,190
 Internal Revenue Service                          -           30,569              -           13,250
 Financial Crimes Enforcement Network              -                475            -                  -
 Tax and Trade                                     -                116                               -
 Department of State                               -                140            -                36
 Department of Labor                               -                250            -                125
 Department of Commerce                            -                100            -                  -
  Totals                                 $         -      $    52,796     $        -           39,923




                            SECTION IV – REQUIRED SUPPLEMENTAL INFORMATION                            61
          SECTION V


OTHER ACCOMPANYING INFORMATION


           (Unaudited)
                                     TREASURY FORFEITURE FUND
                         Equitable Sharing Summarized by State and U.S. Territories
                                   For the Year Ended September 30, 2008
                                            (Dollars in Thousands)
                                                 (Unaudited)

     State/U.S. Territories                             Currency Value                Property Value

     Alabama                                                    $     4                     $       15
     Alaska                                                           -                             27
     Arizona                                                      2,991                              -
     Arkansas                                                        45                              -
     California                                                   9,231                            251
     Colorado                                                        14                              8
     Connecticut                                                    341                            130
     D.C. Washington                                                171                              -
     Delaware                                                        70                              -
     Florida                                                      4,742                            547
     Georgia                                                      2,798                              -
     Guam                                                           138                              -
     Hawaii                                                          67                              -
     Idaho                                                           28                              -
     Illinois                                                     3,502                            120
     Indiana                                                        579                              -
     Iowa                                                            20                              -
     Kansas                                                         192                              -
     Kentucky                                                       693                             90
     Louisiana                                                      526                             34
     Maine                                                           35                             14
     Maryland                                                     5,915                             27
     Massachusetts                                                1,016                            150
     Michigan                                                     1,220                             14
     Minnesota                                                        4                              3
     Mississippi                                                    155                             94
     Missouri                                                        55                              -
     Montana                                                         22                             51
     Nebraska                                                         -                              -
     Nevada                                                       1,124                              -
     New Jersey                                                   2,371                              -
     New Hampshire                                                   55                             64
     New Mexico                                                     178                              -
     New York                                                     8,565                             48
     North Carolina                                               6,257                            631
     North Dakota                                                   349                              -
     Ohio                                                         2,008                             13
     Oklahoma                                                        53                             10
     Oregon                                                         896                              -
     Pennsylvania                                                 2,217                              -
     Puerto Rico                                                    634                             20
     Rhode Island                                                    55                              8
     South Carolina                                                 806                             22
     South Dakota                                                     -                              -
     Tennessee                                                      868                            435
     Texas                                                       12,312                             64
     Utah                                                            10                              -
     Subtotal carried forward                                   $73,332                         $2,890



62               TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
                                      TREASURY FORFEITURE FUND
                          Equitable Sharing Summarized by State and U.S. Territories
                                    For the Year Ended September 30, 2008
                                            (Dollars in Thousands)
                                                 (Unaudited)


      State/U.S. Territories                                    Currency Value                   Property Value

      Subtotal brought forward                                        $73,332                           $2,890
      Vermont                                                             123                                -
      Virgin Islands                                                        -                                -
      Virginia                                                         10,354                              473
      Washington                                                        1,678                              429
      West Virginia                                                        67                                -
      Wisconsin                                                           365                              487
      Wyoming                                                               -                                -

              Totals                                                  $85,919                          $ 4,279

Summarized above are the currency and property values of assets forfeited and shared with state and local agencies
and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of the financial
statement of the Department of the Treasury Forfeiture Fund. Information presented on this schedule represents
assets physically transferred during the year and, therefore, does not agree with total assets shared with state and
local agencies in the financial statements. In addition, the above numbers do not include the adjustment to present
property distributed at net realizable value.




                                 SECTION V – OTHER ACCOMPANYING INFORMATION                                       63
                                  TREASURY FORFEITURE FUND
                Uncontested Seizures of Currency and Monetary Instruments Valued Over
                 $100,000, Taking More Than 120 Days from Seizure to Deposit in Fund
                                For the Year Ended September 30, 2008
                                         (Dollars in Thousands)



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress uncontested seizures
of currency or proceeds of monetary instruments over $100,000, which were not deposited in the Department of the
Treasury Forfeiture Fund within 120 days of the seizure date. There were no administrative seizures over $100,000
over 120 days old for all bureaus in FY 2008.




64               TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
                                   TREASURY FORFEITURE FUND
                           Analysis of Revenue and Expenses and Distributions
                                For the Year Ended September 30, 2008
                                         (Dollars in Thousands)

  Revenue, Expenses and Distributions by Asset Category:
                                                                                              Expenses and
                                                                              Revenue         Distributions

  Vehicles                                                                    $14,652              $71,097
  Vessels                                                                       4,070               90,585
  Aircraft                                                                      4,070               29,183
  General Property                                                             13,024              287,521
  Real Property                                                                45,586               11,262
  Currency and monetary instruments                                           492,277               84,031
                                                                              573,679              573,679
  Less:
    Mortgages and claims                                                      (10,386)             (10,386)
    Refunds                                                                  (176,917)            (176,917)
  Add:
    Excess of net revenues and financing sources over total program                  --                   --
        expenses
  Total                                                                      $386,376             $386,376

  Revenues, Transfers, Expenses and Distributions by Type of
  Disposition:
  Sales of property and forfeited currency and monetary instruments           473,015              108,999
  Reimbursed storage costs                                                      4,352                57,368
  Assets shared with state and local agencies                                  78,498                78,498
  Assets shared with other federal agencies                                    11,551                11,551
  Assets shared with foreign countries                                            177                   177
  Victim Restitution                                                            6,086                 6,086
  Destructions                                                                      --               68,841
  Pending disposition                                                              --              242,159
                                                                              573,679               573,679
  Less:
    Mortgages and claims                                                      (10,386)             (10,386)
    Refunds                                                                  (176,917)            (176,917)
  Add:
    Excess of net revenues and financing sources over total program                --                     --
        expenses
  Total                                                                      $386,376             $386,376

The revenue amount of $386,376 is from the Statement of Net Position. This supplemental schedule “Analysis of
Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund Act of 1992.




                             SECTION V – OTHER ACCOMPANYING INFORMATION                                    65
                                      TREASURY FORFEITURE FUND
                                   Information Required by 31 U.S.C. 9703(f)
                                    For the Year Ended September 30, 2008
                                            (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to transmit to
Congress, no later than February 1, of each year, certain information. The following summarizes the required
information.

(1)    A report on:

       (A)      The estimated total value of property forfeited with respect to which funds were not deposited
             in the Department of the Treasury Forfeiture Fund during the preceding fiscal year under any
             law enforced or administered by the Department of the Treasury law enforcement organizations
             of the United States Coast Guard, in the case of fiscal years beginning after 1993.

             As reported in the audited financial statements, at September 30, 2008, the Fund had forfeited property
             held for sale of $95,149. The realized proceeds will be deposited in the Fund when the property is sold.

             Upon seizure, currency and other monetary instruments not needed for evidence in judicial proceedings
             are deposited in a U.S. Customs Service (Customs) suspense account. Upon forfeiture, it is transferred
             to the Treasury Forfeiture Fund. At September 30, 2008, there was $15,624 of forfeited currency and
             other monetary instruments that had not yet been transferred to the Fund. This is reported as a part of
             “Cash and Other Monetary Assets” in the audited financial statements.

       (B)     The estimated total value of all such property transferred to any state or local law enforcement
             agency.

             The estimated total value of all such property transferred to any state or local law enforcement bureau is
             summarized by state and U.S. territories. Total currency transferred was $85,919 and total property
             transferred was $4,279 at appraised value.

(2)    A report on:

       (A)      The balance of the Fund at the beginning of the preceding fiscal year.

             The total net position of the Treasury Forfeiture Fund on September 30, 2007 which became the
             beginning balance for the Fund on October 1, 2008, as reported in the audited financial statements is
             $361,387.

       (B)      Liens and mortgages paid and the amount of money shared with federal, state, local and
             foreign law enforcement bureaus during the preceding fiscal year.

             Mortgages and claims expense, as reported in the audited financial statements, was $10,386. The
             amount actually paid on a cash basis was not materially different.




66                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
                              TREASURY FORFEITURE FUND
                           Information Required by 31 U.S.C. 9703(f)
                            For the Year Ended September 30, 2008
                                    (Dollars in Thousands)

      The amount of forfeited currency and property shared with federal, and distributed to state, local and
      foreign law enforcement bureaus as reported in the audited financial statements was as follows:

                         State and local                           $78,498
                         Foreign countries                             177
                         Other federal agencies                      11,551
                         Victim restitution                           6,086

(C)     The net amount realized from the operations of the Fund during the preceding fiscal year, the
      amount of seized cash being held as evidence, and the amount of money that has been carried
      over into the current fiscal year.

      The net cost of operations of the Fund as shown in the audited financial statements is $171,876.

      The amount of seized currency not on deposit in the Fund’s suspense account at September 30, 2008,
      was $121,231. This amount includes some funds in the process of being deposited at yearend; cash
      seized in August or September 2008 that is pending determination of its evidentiary value from the U.S.
      Attorney; and the currency seized for forfeiture being held as evidence.

      On a budgetary basis, unobligated balances as originally reported on the Office of Management and
      Budget Reports, SF-133, “Report on Budget Execution” was approximately $183,082 for fiscal year
      2008.

(D)      Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in
      such property is valued at $1 million or more.

      The total approximate value of such property for the Treasury Forfeiture Fund, at estimated values
      determined by bureau and contractor’s officials, and the number of seizures is as follows:

              CBP                                         $121,786          26 seizures
              IRS                                          281,660         107 seizures
              U.S. Secret Service                           88,559          14 seizures

(E)      The total dollar value of uncontested seizures of monetary instruments having a value of over
      $100,000 which, or the proceeds of which, have not been deposited into the Fund within 120 days
      after the seizure, as of the end of the preceding fiscal year.

      The total dollar value of such seizures is $0. This is also documented on page 64.




                        SECTION V – OTHER ACCOMPANYING INFORMATION                                        67
                                    TREASURY FORFEITURE FUND
                                 Information Required by 31 U.S.C. 9703(f)
                                  For the Year Ended September 30, 2008
                                          (Dollars in Thousands)

     (F)      The balance of the Fund at the end of the current fiscal year.

           The total net position of the Fund at September 30, 2008, as reported in the audited financial statements
           is $426,779.

     (G)      The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of
           the preceding fiscal year and available to the Secretary for Federal law enforcement related
           purposes.

           There is no cap on amounts that can be carried forward into Fiscal Year 2009 per the fiscal year 1997
           Omnibus Appropriations Act (PL 104-208).

     (H)      A complete set of audited financial statements prepared in a manner consistent with the
           requirements of the Chief Financial Officers Act of 1990.

           The audited financial statements, including the Independent Auditor’s Report, is found in Section II.

     (I)      An analysis of income and expense showing revenue received or lost: (i) by property category
           (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
           disposition (such as sale, remission, cancellation, placement into official use, sharing with state
           and local agencies, and destruction).

           A separate schedule is presented on page 65.




68              TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2008
